<html>
<title> - U.N. INSPECTIONS OF IRAQ'S WEAPONS OF MASS DESTRUCTION PROGRAMS: HAS SADDAM WON?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 U.N. INSPECTIONS OF IRAQ'S WEAPONS OF MASS DESTRUCTION PROGRAMS: HAS 
                              SADDAM WON?

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2000

                               __________

                           Serial No. 106-190

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
69-976 DTP                  WASHINGTON : 2001
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           DONALD M. PAYNE, New Jersey
ILEANA ROS-LEHTINEN, Florida         ROBERT MENENDEZ, New Jersey
CASS BALLENGER, North Carolina       SHERROD BROWN, Ohio
DANA ROHRABACHER, California         CYNTHIA A. McKINNEY, Georgia
DONALD A. MANZULLO, Illinois         ALCEE L. HASTINGS, Florida
EDWARD R. ROYCE, California          PAT DANNER, Missouri
PETER T. KING, New York              EARL F. HILLIARD, Alabama
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
MARSHALL ``MARK'' SANFORD, South     ROBERT WEXLER, Florida
    Carolina                         STEVEN R. ROTHMAN, New Jersey
MATT SALMON, Arizona                 JIM DAVIS, Florida
AMO HOUGHTON, New York               EARL POMEROY, North Dakota
TOM CAMPBELL, California             WILLIAM D. DELAHUNT, Massachusetts
JOHN M. McHUGH, New York             GREGORY W. MEEKS, New York
KEVIN BRADY, Texas                   BARBARA LEE, California
RICHARD BURR, North Carolina         JOSEPH CROWLEY, New York
PAUL E. GILLMOR, Ohio                JOSEPH M. HOEFFEL, Pennsylvania
GEORGE RADANOVICH, California        [VACANCY]
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                  Stephen G. Rademaker, Chief Counsel
                   Shennel A. Nagia, Staff Associate




                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ambassador Richard Butler, Diplomat in Residence, Council on 
  Foreign Relations, Executive Chairman of the United Nations 
  Special Commission on Iraq (UNSCOM)............................     3
The Honorable Stephen J. Solarz, Former Representative in 
  Congress.......................................................    10

                                APPENDIX

Members' prepared statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York, and Chairman, Committee on International 
  Relations......................................................    33

Witness prepared statements:

The Honorable Stephen J. Solarz..................................    34


 
 U.N. INSPECTIONS OF IRAQ'S WEAPONS OF MASS DESTRUCTION PROGRAMS: HAS 
                              SADDAM WON?

                              ----------                              


                      TUESDAY, SEPTEMBER 26, 2000

                  House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10 a.m. in Room 
2167, Rayburn House Office Building, Hon. Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Chairman Gilman. The Committee on International Relations 
meets today to receive testimony from two very distinguished 
witnesses about the serious problems our nation continues to 
face in dealing with Iraq. I understand Mr. Solarz is tied up 
in traffic but is on his way, and he should be here shortly.
    Upon the conclusion of this morning's hearing, our 
Committee will move directly to mark up a bill that a number of 
my colleagues and I introduced yesterday regarding the 
possibility of a unilateral declaration of statehood by the 
Palestinians. That bill, the Peace Through Negotiations Act of 
2000, is intended to underscore our very strong conviction that 
such a unilateral declaration would undermine the Middle East 
peace process and threaten U.S. national interests in the 
region.
    But before we go to that issue, we are going to hear about 
another serious threat to U.S. interests in the Middle East, 
and that is the threat posed by Saddam Hussein and his 
continued efforts to thwart international inspections of his 
weapons-of-mass-destruction programs. The gravity of the threat 
posed by Saddam and the inadequacy of our nation's response to 
that threat has been highlighted by three articles that 
appeared recently in The Washington Post.
    The first article appeared on August 30th, and in that 
article it was reported that in late-August our nation joined 
with Russia and France and the U.N. Security Council to block 
the new U.N. weapons inspection agency for Iraq, UNMOVIC--I 
hope I have the correct pronunciation of that--from declaring 
it was ready to begin inspections inside Iraq. The story quotes 
an unnamed U.N. diplomat as stating: ``The United States and 
Russia agreed that it was not appropriate to give the 
impression that UNMOVIC was ready to get back into Iraq. They 
cautioned that this might create a climate of confrontation at 
an inappropriate time.''
    If this story is true, the effort to avoid confronting 
Saddam over his weapons-of-mass-destruction programs has to be 
a low point in U.S. diplomacy toward Iraq. Turning off the 
U.N.'s new weapons inspectors at the very moment they were 
ready to begin their work can only demoralize the inspectors 
and embolden Saddam Hussein.
    Indeed, the very next day, on September 1st, The Washington 
Post reported: ``The United States is prepared to deploy 
Patriot missile-defense batteries to Israel because of growing 
fears of a possible attack by Iraq.'' Clearly, the 
Administration has reason to believe that Saddam was thinking 
about climbing out of the box in which they claimed to have put 
him in.
    In the third article, on September 18th, The Washington 
Post reported that Secretary of Defense William Cohen had 
warned Saddam Hussein against renewed aggression after Iraq 
publicly accused Kuwait of siphoning oil from Iraqi oil fields 
and flew an Iraqi fighter jet across Saudi Arabian air space 
for the first time in a decade.
    These actions by Saddam are reminiscent of his actions 
leading up to the Gulf War in 1990, and Secretary Cohen was 
right to issue his warning. The question for us today, 
therefore, is, why has Saddam chosen this moment to resort to 
some of his old habits?
    Here to help us make sense on these developments are two 
very distinguished observers of events in Iraq. Ambassador 
Richard Butler has direct experience dealing with Saddam 
Hussein as the executive director of the predecessor 
organization to UNMOVIC, the U.N. Special Commission on Iraq, 
or UNSCOM, from 1997 to 1999. Prior to that, he was a career 
diplomat in the Australian Foreign Service, where he served as 
Australia's ambassador to the United Nations, ambassador for 
disarmament, and ambassador to Thailand, among other posts.
    Ambassador Butler is now with the Council on Foreign 
Relations in New York, and we are especially eager to hear his 
assessment of where Iraq stands today on matters of 
disarmament, and what the actions taken by the Security Council 
last month with regard to UNMOVIC mean for the likely success 
of that organization.
    Joining Ambassador Butler will be one of our former 
colleagues and a friend to all of us on the Committee, Mr. 
Solarz. He served nine terms in the House as a Democrat 
representing the State of New York and at various times Chaired 
our Subcommittees on Asia and Pacific and on Africa. Since 
leaving the Congress he has remained deeply engaged in foreign-
policy issues, taking a special interest in the subject of 
Iraq, and I am pleased that he will be with us again.
    We will hear first from Ambassador Butler, but before 
recognizing him, permit me to turn to our Ranking Democratic 
Member, the gentleman from Connecticut, Mr. Gejdenson, for any 
opening remarks.
    [The prepared statement of Mr. Gilman is available in the 
appendix.]
    Mr. Gejdenson. Mr. Chairman, thank you. It should not be a 
surprise that Saddam Hussein is making his quadrennial 
appearances to coincide with America's elections, hoping that 
the diversion of our political process may give him an 
opportunity for additional mischief. I think if he thinks that 
is the case, he is making a terrible mistake because while I 
think we will not be initiating a new policy at this stage in 
our presidential term, it is clear the United States will not 
allow Saddam Hussein to make any militarily aggressive actions 
in the region.
    For the future, it is a more complicated situation. I 
think, one, we have to have a policy based in reality and it is 
highly unlikely, from my perspective, that people who spend 
their days in the hotels of London and France are going to lead 
a revolution to overthrow Saddam militarily. It is also clear 
that the West will not provide the military force to replace 
Saddam at this time, just as the Bush Administration decided at 
the end of the Gulf War not to try to remove him militarily.
    I think also we have to understand that particularly the 
French and the Russians, sitting on a tremendous debt that the 
Iraqis owe them, tens of billions of dollars, have an 
additional incentive for engagement with Iraq. Iraq's Arab 
neighbors, even though I think most of them understand that 
Saddam manipulates the food supplies for his own political 
benefit, find themselves in a difficult situation as Iraqi 
children and others are affected by his policies, which he 
blames on the embargo. It is my understanding that Iraq has 
somewhere in the range of $10 billion in its humanitarian 
account that it could spend for food, but we know the games 
that he is up to.
    And I think for us in the United States, what we have to do 
is, one, figure out a policy that we can get broad 
international support for, that we cannot lose sight of the 
fact that this is an individual who would still like to have 
nuclear, chemical, and biological weapons and the missiles to 
deliver them to neighbors and others around the world. And so 
it is not a simple task, but it is one that is going to take 
coordination with our allies and a sustained effort, and I 
thank the Chairman for holding this important hearing and look 
forward to hearing from both of our panelists.
    Chairman Gilman. Thank you, Mr. Gejdenson. Any other 
Members seeking recognition? If not, Mr. Butler, Ambassador 
Butler, please proceed.

STATEMENT OF AMBASSADOR RICHARD BUTLER, DIPLOMAT IN RESIDENCE, 
COUNCIL ON FOREIGN RELATIONS, EXECUTIVE CHAIRMAN OF THE UNITED 
          NATIONS SPECIAL COMMISSION ON IRAQ [UNSCOM]

    Ambassador Butler. Thank you, Mr. Chairman. I am honored 
and grateful to you for inviting me to be here today to address 
what you and Mr. Gejdenson have just recognized as a serious 
and continuing problem.
    In my opening remarks I would propose to deal relatively 
briefly with three. The first of those is, what is the present 
situation, and how did we get there; the second is, what are 
its visible consequences; and, thirdly, what we might do to 
correct this situation.
    First, the present situation and how did we get there. On 
the present situation, the simplest way of putting it is this: 
Saddam Hussein is still there. He remains determined to retain 
and develop a weapons-of-mass- destruction capability. He has 
been without the presence in his country of United Nations or 
international weapons inspectors, and the effort to disarm him 
of the weapons he created in the past has ended. That has been 
the situation for 2 years, and all of the evidence at our 
disposal, although that evidence, because of the absence of 
international presence in Iraq, is somewhat inadequate, all of 
the evidence suggests strongly that he is back in the business 
of making, reacquiring, weapons-of-mass-destruction capability.
    That, in a nutshell, is the present situation, and it goes 
without saying, it is a deeply disturbing, if not threatening, 
situation. Now, how on earth did we get there, when so much 
effort, so much time, so much money, was devoted over the last 
10 years toward achieving exactly the opposite result?
    Now, the answer to that question, Mr. Chairman, is 
necessarily a complicated and detailed one, but I am sure all 
of those present have a good degree of familiarity with it, so 
let me get to what I consider to be the two central elements in 
answers to the question, how did we get into this dreadful 
situation?
    First, it is this: As pressure grew in 1998 toward some 
kind of end to the situation of recurrent crises with Iraq and, 
indeed, some end to the sanctions that have delivered 
considerable harm not to the regime, but to ordinary Iraqis, I 
took, with the approval of the security council, I took to 
Baghdad, in June 1998, a final list of remaining disarmament 
requirements, the materials and information that we needed in 
the missile, chemical, and biological area in order to be in a 
position to say to the security council that we had gotten the 
best possible account of Iraq's existing weapons-of-mass-
destruction capability.
    Note, Mr. Chairman, I am not saying that I would have been 
able to say to the council with absolute certainty that Iraq is 
disarmed, but that I hoped to be able to say to the council, 
the security council, that we had the fullest, most complete, 
best-possible account of the missiles, chemical and biological 
weapons for which I was responsible that it was possible to put 
together.
    I made very clear in Baghdad, sitting across the table from 
Saddam's assistants, in particular, Tarik Aziz, the deputy 
prime minister of Iraq, I made clear to him that my short list 
was a list of the necessary conditions for being in a position 
to so report to the security council that we had an accurate 
account of Iraq's past weapons. I drew a distinction between 
the necessary conditions and the sufficient conditions. If the 
former were to become the latter, it would only be as a 
consequence of Iraq yielding to us the materials and weapons 
that were on my list. The quality of their answers and 
cooperation would be everything, and that was well understood.
    Tarik Aziz told me in June that Iraq would cooperate in 
seeking to bring that list of materials to proper account, and 
he said to me, come back to Baghdad 6 weeks from now, and we 
will render that final account. I did so, having in the interim 
put to work all of the resources of UNSCOM in every field of 
weaponry, with intensive inspections, visits, and inquiries of 
Iraqi officials. But it became clear very quickly in the 6 
weeks that was to be set aside for this work that Iraq was once 
again refusing to give us the materials and weapons we 
required, even on this relatively shortened list. And when I 
got to Baghdad, as requested by Aziz in August 1998, to try to 
bring that list to final account, he made clear to me that he 
was well aware that Iraq had refused to give us the materials 
we required, had refused to cooperate.
    Chairman Gilman. Who was that?
    Ambassador Butler. Tarik Aziz. He made clear that he was 
well aware of that, and he said instead not only would he not 
give us those materials, but that our disarmament work was 
ended. And he placed a demand upon me to return to the security 
council and declare Iraq disarmed, irrespective of the fact 
that he had failed--that Iraq had failed to give us the 
required materials.
    I refused to comply with his request. I said, I will not do 
what you ask me because I cannot because you have failed to 
give me the weapons and materials required. And he then 
declared UNSCOM's work over and shut down any further attempt 
by the international community to disarm Iraq and, possibly 
even more importantly, shut down our monitoring of ongoing 
Iraqi manufacturing activities in the field of weapons of mass 
destruction. Now, that was Iraq's decision, and that produced 
the situation that we have faced for the subsequent 2 years.
    But the second point I want to make under this heading of 
how did we get to where we are arises through my posing the 
question, why did Iraq do this? What made it think that it 
could get away with this? What was its thinking leading to this 
pattern of behavior? And the answer there is distressingly 
simple. Iraq felt that it could get away with this because it 
knew that it would have support from amongst certain permanent 
members of the security council, in particular, Russia, and to 
some extent, France and China. And it knew that under 
circumstances where the security council was divided on 
implementing its own laws with respect to Iraq, that it would 
be able to get away with the position that it had adopted.
    That should not, however, mask, Mr. Chairman, its 
functional motivation in rejecting the list that I had given 
it, and that motivation was driven by the fact that the list 
was right. If we had actually gotten the materials that were on 
that list, we would have effectively rendered final account of 
Iraq's existing weapons-of-mass-destruction systems. And it was 
because Iraq wanted to retain those systems that it refused to 
comply with the request I put to it to yield remaining 
materials in the missiles, chemical and biological weapons 
area.
    So, to sum this up, 2 years without further disarmament 
work, no monitoring of ongoing efforts to create new weapons, 
decisions taken by Iraq because of their functional wish to 
retain weapons capability, and able to be taken by Iraq because 
they knew they had support from amongst permanent members of 
the security council.
    Now, my second heading: What are the consequences of this? 
I will mention quickly four things. One, in the interim period 
Iraq has clearly embarked again on the business of making more 
weapons of mass destruction. We cannot know exactly the orders 
of magnitude involved because we are not there. That is the 
inner logic of inspections and monitoring: You cannot know 
exactly what you cannot see.
    But evidence available to the United States Government, to 
others, evidence which I have seen, although I am sure not all 
of that available, evidence available strongly suggests this: 
Iraq is back in the business of seeking to extend the range of 
its missiles beyond the legal limit of the 150-kilometer range.
    Secondly, Iraq has recalled its nuclear-weapons design 
team. And I remind the Committee that when the work of that 
team was stopped in 1991, they were 6 months away from 
producing a nuclear explosive device. They know how to make an 
atomic bomb. The only thing they have lacked in the past is the 
required, special, fissionable material. And today that raises 
the question of where they may be able to acquire that 
material, including from black-market sources. So they are back 
in the business of extending their missiles. They have recalled 
their nuclear-weapons design team.
    They have, thirdly, rebuilt their chemical-warfare 
factories, and the same is true of their biological-warfare 
factories. They are simply back in business.
    Secondly, the sanctions that were applied to Iraq in the 
first instance to seek to oblige their compliance with the 
council's decision that they should withdraw from Kuwait, but 
then more importantly, in 1991 those sanctions were tied 
specifically after they were expelled from Kuwait; those 
sanctions were tied specifically to the meeting of disarmament 
and monitoring requirements. Those sanctions are crumbling. 
Those sanctions are not doing their intended job.
    It follows from the first point I have made. Iraq is back 
in the business of making the prohibited weapons, even though 
sanctions legally remain. But we see evidence all around that 
those sanctions are not doing their job. They are crumbling and 
being challenged daily, including by permanent members of the 
security council and, quite literally, largely through a black 
market, but not exclusively, partly through siphoning off food 
and medicines made available to Iraq under U.N. sanctions.
    The Iraqi regime is now literally awash with money, and 
this is facilitating their work on weapons of mass destruction. 
The sanctions instrument is no longer effective. Its only 
consequence today is not to do any harm to the regime or its 
weapons intentions; its only consequence today is to continue 
to do insupportable harm to innocent, ordinary Iraqis.
    My third point is that this unhappy passage of events 
within the security council is causing its authority to 
crumble.
    Chairman Gilman. Mr. Butler, Ambassador Butler, I regret 
that we have to recess. We are being called to the floor. We 
have just a few minutes, and we will return very quickly. The 
Committee stands in recess.
    [Whereupon, at 10:25 a.m., the Committee recessed, and 
reconvened at 10:41 a.m. the same day.]
    Chairman Gilman. The Committee will come to order. I 
apologize for the interruption. Ambassador Butler, please 
proceed.
    Ambassador Butler. Thank you, Mr. Chairman. I was dealing 
with the second part of my presentation to the Committee, that 
is, the consequences of the present circumstances. I mentioned 
that Iraq is back in business of making weapons of mass 
destruction and seeking to extend their holdings of those 
weapons. I had said that sanctions are not doing the job that 
they were supposed to be doing, that they are, in fact, 
crumbling. In the discussion period I am sure there will be 
more on that subject, so I might just leave that subject in the 
interest of time and move on.
    I had said that the third consequence is the destruction of 
the authority of the security council. This is a very serious 
matter. It is easy to find cynics or skeptics about the 
security council on a whole range of subjects. It is very easy 
to list the widely regarded failures of the security council 
over the last decade of the post-Cold War period in Africa, in 
the Balkans, and so on.
    But all that aside, there is something very deeply 
important about the security council, which is that it is the 
supreme, international body charged with the maintenance and 
security, and under the charter of the U.N. its decisions are 
binding in international law. This is a very carefully crafted 
structure, crafted in San Francisco, after the defeat of Hitler 
and his allies, very carefully put together. And when it works 
properly, it has great value to the world, but it relies 
essentially on the preservation of its own authority. That 
authority has been challenged root and branch by the dictator 
of Iraq, and the council seems to be not meeting that 
challenge. I think that has profound consequences in a whole 
range of fields, and it should be deeply disturbing.
    Finally, the force of the consequences I want to highlight 
is the implementation of Saddam's behavior for the credibility 
and security of the weapons-of-mass-destruction 
nonproliferation-treaty regimes. Now, this Administration and 
its predecessor, in fact, all United States Administrations I 
can recall in the nuclear age, for example, have said that they 
place great reliance on the Nuclear Nonproliferation Treaty, 
which in some ways is the jewel in the crown treaties on the 
nonproliferation of weapons of mass destruction. But there is 
also now the modern Chemical Weapons Convention. There is a 
Missile Technology Control Regime, the Biological Weapons 
Convention. I could go on.
    This tapestry of treaties, at root, relies upon the ability 
of members of the treaties to believe that violations will be 
detected, and where necessary, the terms of the treaty will be 
enforced. And interestingly, Mr. Chairman, in virtually all 
cases under these treaties what is the enforcement mechanism? 
Who is the policeman on the block here? The answer is the same 
body, the security council.
    If the security council fails in this instance from that 
very, very serious challenge waged by Saddam, then I contend, 
and I think there is evidence already for this phenomenon, I 
contend that the credibility of the treaties themselves will be 
severely challenged in other parts of the world. And I do not 
think that is in the interest of this country or any country 
concerned to ensure to future generations that we do not live 
in a world awash with weapons of mass destruction or, indeed, a 
world in which terrorists can have ready access or any access 
to weapons of mass destruction.
    Now, Mr. Chairman, I will turn quickly to my last heading, 
which is, what to do about it. I am going to speak on the two 
things in very practical terms. As will be evident from my 
remarks, the problem lies, first and foremost, in the security 
council. It seems to me that sound, future policy by the United 
States would give priority attention to action by it to bring 
about a new consensus within the security council amongst 
permanent members with respect to the problems posed by Saddam 
Hussein, the maintenance of the authority of the council as the 
key body in this field, and with respect to the maintenance of 
the credibility of the treaties on nonproliferation.
    This must mean, first and foremost, that the Administration 
must make clear to Russia that its newly embarked-upon policy, 
redolent of the Cold War period of client statism, its newly 
embarked-upon policy of giving support and comfort to regimes 
such as the Saddam regime, is simply not acceptable, not 
acceptable to the United States as a nation and not acceptable 
as behavior fitting to a permanent member of the security 
council.
    This is a tough call, but I believe deeply it is one that 
must be made. The Administration has said there are red lines 
with respect to Saddam Hussein. Madeleine Albright, Secretary 
Albright, said recently the United States would the not use 
force to bring about a restoration under UNMOVIC of arms-
control inspection and monitoring. Now, she said, however, 
there are red lines which may change position. If Iraq 
reinvaded Kuwait or made a move on a neighbor, if Iraq 
threatened the Kurds, or if Iraq was seen to be developing 
serious weapons of mass destruction, could I say, as an aside, 
I wonder how we are going to know that without inspections? Are 
they going to send us a telegram saying we are developing 
weapons of mass destruction?
    But leaving that aside, there are three stated United 
States red lines. Mr. Chairman, where is the fourth red line? 
Where is the red line that says we will not tolerate from 
permanent members of the security council a departure from 
their responsibility to enforce their own law to maintain 
nonproliferation of weapons of mass destruction, and instead to 
pursue what they consider to be their narrow and national 
interests, whether, as you pointed out, it is based on the 
money they think Iraq owes them or some notion of wanting to 
twist the United States' tail, now that it is the sole 
superpower, or whatever reasoning? It seems to me this should 
be another red line, that it should be made clear to permanent 
members of the security council that there is a duty that all 
share to see that the law is obeyed. I do not think that task 
has been adequately pursued, and that is my first 
recommendation.
    Now, secondly, with respect to sanctions, as I said 
earlier, they clearly do not work or get the job done in their 
present form. Let us be clear, Mr. Chairman, as we discuss 
sanctions, who is responsible for them. There is a lot of talk 
of goodwill, well-intentioned people that say the security 
council is responsible for them, that we in the West are 
somehow using sanctions as our own weapons of mass destruction 
against the ordinary Iraqi people.
    I reject that contention because it ignores the functional 
responsibility that is held for sanctions, and that is held by 
none other than Saddam Hussein. He has always had the ability 
to see sanctions relieved by simply handing over the weapons as 
the law required. Had that been done, it would have been my 
duty to say immediately to the security council it is over, and 
the council is pledged under its own law to then remove 
sanctions.
    So let us be clear about whose responsibility it is. And 
when it gets down to the actual impact of sanctions on ordinary 
Iraqis, let us be clear, too, that a portion of that impact 
derives from Saddam's own manipulation of the food and 
medicines that are supplied to Iraq. In the one part of Iraq 
where his rule does not prevail, but which is provided with 
food and medicine under the oil-for-food arrangements, namely, 
in the Kurdish North, their standard of nourishment, their 
standard of infant mortality, et cetera, their overall living 
conditions are very considerably better than in the parts of 
Iraq where Saddam is fully in control, and that tells its own 
story. But having made those points about the real reason for 
sanctions having the impact that they do on ordinary Iraqis, 
let me say that I do believe that the sanction instrument, 
because it is not doing its job, needs to be reviewed.
    Mr. Chairman, this is not a commercial, but let me say, I 
have written a book on my experience in dealing with Iraq, and 
it is called The Greatest Threat, and that refers to the 
weapons involved. But the subheading is Iraq: Weapons of Mass 
Destruction and the Crisis of Global Security.
    Now, Mr. Chairman, I do not know what else to call it but a 
crisis. One of the main instruments of the security council is 
sanctions. That is the main, nonmilitary instrument to bring 
about compliance with the law. It is not working. The security 
council's ability to enforce the law under Article 42 of the 
charter by military means is clearly out of the question, given 
the state of affairs in the security council. I do not know 
what to call that, Mr. Chairman, other than a crisis in the 
collective management of global security.
    But with respect to the sanctions part of that, I believe, 
and this is my second recommendation, and last, I believe the 
United States should raise with the security council the 
question of how to adjust sanctions on Iraq to ensure that they 
target the leadership and that they continue to present the 
importation of military goods into Iraq and relieve, as it 
were, as far as possible, ordinary Iraqis from, the domestic 
civil sector, from the impact of sanctions. It should not be 
beyond our wit to design targeted sanctions of that kind.
    I do not suggest that that is a panacea because, sadly, I 
believe it is entirely possible that if the Russians got what 
they want tomorrow and that sanctions were removed in toto, 
taken away completely, that the idea that you would see an 
immediate increase in the welfare of ordinary Iraqis would be 
fulfilled. I strongly doubt that that would occur. I think 
Saddam would say our first task now is to rebuild the nation, 
meaning the military. And that is why I say a correct approach 
to get out of this crisis of security management and make 
sanctions do whatever job they can better would be to insist 
that they remain targeted on the importation of military goods.
    Now, in my final remark, let me say something that is not 
widely understood. In such a new sanctions regime it would be 
crucial that a part of the package would be that Iraq would 
have to accept the restoration of monitoring on its weapons-
related industries. And what is not widely known today, Mr. 
Chairman, is that the present circumstances are worse than 
dreadful because not only is Iraq defying the law and 
preventing the monitoring system that we had built over 8 years 
from doing its job, but under this present situation of stand-
off Iraq is not even accepting the regular inspections that it 
is supposed to have under the treaties of which it is a 
partner, namely, the Nuclear Nonproliferation Treaty or the 
Chemical Weapons Convention, which it has not ratified but 
which does provide for an inspection of chemical-related 
facilities.
    So I say that as a footnote because actually it 
demonstrates that the circumstances we face are even, as I 
said, worse than dreadful, in that the regular inspections, let 
alone the special ones, are now not taking place in Iraq.
    So there are my two proposals, Mr. Chairman, one within the 
hard-edged context of relations amongst the permanent members 
of the security council where I believe the United States must 
stand up and demand correct behavior, and the other, a new look 
at sanctions to ensure that they do their real job. The sharp 
end of the stick there must be to prevent importation of 
military-related goods. And there are my two proposals. I thank 
you for your attention.
    Chairman Gilman. Well, thank you, Ambassador Butler, for 
your very eloquent analysis of what we are faced with, and it 
certainly is a crisis.
    We are now pleased to recognize and to welcome back to our 
Committee a former Congressman, Steve Solarz, who served nine 
terms in the House and represented the State of New York and at 
various times Chaired our Subcommittees on Asia and Pacific and 
on Africa. And since leaving the Congress he has remained 
deeply engaged in foreign-policy issues, taking a special 
interest in the subject of Iraq. It is a pleasure to welcome 
you back, Mr. Solarz. Please proceed.

     STATEMENT OF THE HONORABLE STEPHEN J. SOLARZ, FORMER 
                   REPRESENTATIVE IN CONGRESS

    Mr. Solarz. Thank you very much, Mr. Chairman. It is good 
to be back before this Committee, although I must say, if I had 
my druthers, I would probably prefer to be on the other side of 
the witness table. Nevertheless, it is good to be with you and 
some of my old friends on the Committee.
    I also consider it an honor to be asked to testify together 
with Ambassador Butler whose book on his experiences dealing 
with the effort to eliminate weapons of mass destruction in 
Iraq I have read and which I heartily commend to you. It is an 
extremely persuasive indictment of the mendacity and duplicity 
of Iraq in attempting to cover up its weapons-of-mass-
destruction program, of the shamelessness of several members of 
the security council that appear more interested in getting 
sanctions lifted against Iraq so they can continue to do 
business with it than they are in forcing Iraq to disgorge its 
weapons of mass destruction, and of the Fecklessness of the 
U.N. bureaucracy, which is clearly more interested in avoiding 
controversy than in seeking the implementation of relevant, 
security-council resolutions against Iraq.
    Mr. Chairman, before I go any further, let me just say for 
the record so there should be no misunderstanding, as I think 
you know, I have been engaged by the government of Turkey, 
together with some of my other former colleagues, to represent 
its interests here in Washington, and I want to say that my 
testimony today reflects purely my own views about the 
situation in Iraq and what we ought to do about it, and I have 
neither vetted my testimony with any officials of the Turkish 
government, nor did I have any intention of doing so. I speak 
today solely for myself.
    Ambassador Butler has explained at length how we got where 
we are. I want to focus my testimony on what we should do about 
it. I think that the continued existence of an unrepented and 
unreconstructed Baathist regime in Iraq, which is presumptively 
reconstituting its inventory of weapons of mass destruction, 
poses two fundamental questions for American policy. First, to 
what extent does this constitute an unacceptable threat to 
vital American interests; and secondly, what should we do about 
it?
    The answer to the first question, I think, is very clear. 
The butcher of Baghdad, who remains in power 10 years after 
Desert Storm, long after George Bush and Margaret Thatcher are 
out of power, and Francois Mitterrand and Hafiz Al-Assad are 
dead, is clearly biding his time, waiting for an opportune 
moment to wreak vengeance against those who were responsible 
for thwarting his hegemonic ambitions in the past and who are 
presumably prepared to thwart them in the future.
    Indeed, as we meet, threats are emanating almost daily from 
Baghdad against Kuwait and other countries in the region, 
strikingly reminiscent of the threats which the Mesopotamian 
megalomaniac was hurling a decade ago before the invasion of 
Kuwait. We must not forget that this is a man who has gone to 
war twice in the last decade, first against Iran and then 
against Kuwait, and who has used weapons of mass destruction 
not only against his enemies, but against his own people as 
well.
    To believe under these circumstances that Saddam Hussein 
does not pose a very serious threat to vital American 
interests, it seems to me, would be the height of naivety. The 
more difficult question is, what realistically can be done 
about it?
    Recognizing the extent to which Saddam does pose a serious 
threat to the United States, both the Congress and the 
executive branch of our government have embraced the Iraq 
Liberation Act, which was passed to a large extent due to your 
leadership, Mr. Chairman, and which is based on the notion that 
the best way to protect our interests vis-a-vis Iraq is to work 
for the destabilization and eventual overthrow of the regime.
    The Iraq Liberation Act, as you know, calls for the 
disbursement of up to $97 million in excess military equipment 
to the Iraqi opposition, and it is premised on the 
incontestable proposition that a peaceful transition from a 
malign dictatorship to a benign democracy in a country like 
Iraq is a political oxymoron. And it was also based on the 
assumption that to wait for a military coup in a country whose 
military is riddled by several secret services, where you have 
a leader who does not hesitate to tortue and execute anyone he 
even suspects of conspiring against him is to put our faith in 
miracles.
    Yet 2 years after the passage of this historic legislation 
not a single bullet has been transferred to the Iraqi 
opposition. It is true, to be sure, that we have provided fax 
machines and computers to the Iraqi National Congress, but I 
would suggest that the transfer of office equipment, no matter 
how sophisticated it may be, is unlikely to either discomfort 
or depose Mr. Hussein. I think it is fairly clear that, despite 
his rhetorical embrace of the Iraq Liberation Act, President 
Clinton appears to have no intention of utilizing the authority 
contained in this legislation to provide the arms and military 
training to those Iraqis who are willing to lay their lives on 
the line for the freedom of their country.
    Much will depend on the willingness of the next 
Administration to implement this legislation, but it will also 
depend, and I think it is very important for us to recognize 
this, on the cooperation of those countries which are 
contiguous to Iraq, such as Turkey, Jordan, and Kuwait, to 
provide the sanctuaries and to facilitate the flow of arms 
without which the Iraq Liberation Act would be a dead letter 
and without which the prospect for an effective, indigenous 
opposition to the Baathist regime in Baghdad will remain an 
illusion rather than a reality.
    Right now, the truth is that none of the countries 
territorially contiguous to Iraq are prepared to provide the 
kind of cooperation the implementation of the ILA would 
require. In the absence of a convincing demonstration by the 
United States that we are determined to bring Saddam down and 
that we will, if necessary, be prepared to use American 
military power, including ground forces, if necessary, to 
achieve this objective, I do not think that we can 
realistically expect the cooperation of the contiguous 
countries because they have little faith in the ability of the 
Iraqi opposition on their own to achieve this objective, and 
they do not want to put themselves in a position where they are 
further exposed to the wrath of Saddam Hussein without being 
reasonably confident that this effort will succeed in bringing 
him down.
    I should also add that if there is going to be any hope in 
securing the cooperation of the contiguous countries, it will 
be essential first to induce the Iraqi opposition to reaffirm 
its commitment to a unified [albeit federal] Iraq, and to make 
it clear that as a matter of functional policy the United 
States would oppose the establishment of a separate Kurdish 
state in northern Iraq or a separate Shia state in southern 
Iraq.
    I think we need to recognize, Mr. Chairman and Members of 
the Committee, that right now, by virtue of the fact that we 
have a declared policy of attempting to bring down the regime 
in Iraq but lack a concrete policy with any credible prospect 
of achieving that objective, that we are paying a very heavy 
price in terms of our credibility in the region. Credibility, 
after all, is the coin in which great powers conduct their 
affairs, and our ability to persuade other countries, 
particularly in the Middle East, to act in ways that promote 
our values and protect our interests depends on the extent to 
which they have faith in the credibility of our commitments and 
the seriousness of our threats.
    When we declare as a matter of policy that we want to bring 
the regime in Baghdad down but do not do anything to 
practically achieve that objective, I think we inevitably 
diminish our credibility and will end up paying a very heavy 
price for it.
    Now, the Administration has argued that were we to provide 
military assistance to the Iraqi opposition, that we would 
simply be inviting ``another Bay of Pigs'' for which we would 
be held morally responsible. And I can only say, Mr. Chairman, 
that if this were the criteria which we had used in the 1980's 
before deciding whether to provide assistance to the Mujahadin 
in Afghanistan or the Contras in Nicaragua or the noncommunist 
resistance in Cambodia or UNITA in Angola, we never would have 
helped any of those indigenous movements either.
    I believe we ought to be prepared to provide air cover and 
air support for an indigenous Iraqi opposition, and I think we 
also, if necessary, ought to be prepared to use our own ground 
forces because, unless we are prepared to do that, we are never 
going to get the cooperation which will enable us to help the 
indigenous Iraqi opposition. But even if we were not prepared 
to provide that kind of assistance, the moral responsibility 
for whatever casualties might result from an opposition to 
which we provided military assistance rests with the men and 
women who are willing on their own initiative to take up arms 
for the freedom of their own country.
    Now, our current policy, which is apparently based on the 
belief that even if Saddam does reconstitute his weapons of 
mass destruction, we can keep him in his box, as the secretary 
of state has said, because of the threat of retaliation if he 
uses his weapons of mass destruction or even conventional 
military power alone, seems to me based on a number of very 
dubious assumptions. For one thing, it is very clear the 
existing sanctions regime is utterly unraveling. Russia and 
France and now India are talking about resuming flights to 
Iraq.
    It is obvious from Ambassador Butler's testimony that 
Saddam is reconstituting his weapons. We know Saddam is capable 
of massive miscalculations, and I think to rest on the 
assumption that he will continue to be deterred in the future 
is to put our faith in wishful thinking.
    So I think Saddam does pose a serious threat to vital 
American interests. Some of you may recall that 3 years ago 
Secretary of Defense Cohen appeared on national television and 
held up a five-pound bag of sugar and said, if this was filled 
with anthrax, it could kill half the people in Washington, DC. 
I think this is a threat which the American people can 
understand and to which, with forceful presidential leadership, 
they can respond.
    I realize that from a political point of view it would be 
almost impossible right now to muster the support in the 
Congress and the country that would be needed for the 
reintroduction of American military power in the Persian Gulf 
for the purpose of bringing Saddam down in collaboration with 
the Iraqi resistance and whatever members of the coalition were 
willing to join with us in a renewed effort to eliminate this 
threat to the peace and stability of the region.
    But I am convinced that if and when we obtain hard 
evidence, and I assume that sooner or later we will, that 
Saddam is reconstituting his weapons of mass destruction, which 
there is every reason to believe he is doing, that at that 
point if the president went to the Congress and the country, 
showed them the evidence that we have, that it would be 
possible to muster the political support which would be 
necessary for such an endeavor.
    Finally, Mr. Chairman, I think that both the Congress and 
the next Administration will have to confront some very hard 
realities. If, in fact, we believe, as I do, that the only way 
to stop the Iraqi regime from rebuilding its weapons of mass 
destruction is to remove the regime that is producing them, 
because it is obvious they have no intention of permitting U.N. 
inspectors back in under circumstances where they can really do 
their job, then in order to achieve that objective, we have to 
understand that it cannot be done on the cheap.
    The Iraq Liberation Act, which I strongly support and which 
I commend you for adopting, can only be effectively implemented 
with the cooperation of other countries in the region, and that 
cooperation can only be obtained if we are prepared to put our 
military where our mouth is. Thank you very much.
    [The prepared statement of Mr. Solarz is available in the 
appendix.]
    Chairman Gilman. Thank you, Mr. Solarz, and thank you, 
Ambassador Butler, for your extensive analysis of this very 
critical issue.
    Let us proceed now with some of the questions. Ambassador 
Butler, do you believe that Saddam has used the nearly 2 years 
that the U.N. weapons inspectors have been out of Iraq to begin 
reconstituting the weapons of mass destruction, and which of 
those weapons programs should we be especially concerned about?
    Ambassador Butler. Mr. Chairman, I do believe that he has 
used this 2 years to that effect. In thinking about this, I 
must say I am reminded of the classic test that is put when 
someone is alleged to have committed a crime such as murder: 
Did the person have the motive, the means, and the opportunity? 
Well, Mr. Chairman, the motives of Saddam Hussein have always 
been abundantly plain, and they have not changed.
    May I say, I strongly support for this reason the moves 
that are now afoot to have him indicted as a person who has 
committed crimes against humanity?
    Secondly, the means. The means are well established. They 
know very well how to make an atomic bomb. They know very well 
how to make their missiles breach the limit and fly longer. In 
the last technical conversation I had in Baghdad it was about 
precisely that. I asked the minister in charge of missiles to 
stop illegal work that they were then commencing to create 
virtually new Scuds, and he said, we will not.
    And there is evidence that they have been about that 
business in these 2 years, and the United States Administration 
has itself put into the public arena that it has observed from 
the sky the reconstruction of Iraq's chemical and biological 
weapons plants. You cannot know exactly what is happening 
inside those buildings unless you can be on the ground. Again, 
that is the logic of inspections.
    So, the third condition, motive, means, and now 
opportunity, has been deliciously filled for him by 2 years' 
freedom from inspection or monitoring and finally, given his 
track record of use of these weapons, there is a saying that 
says Saddam has never had a weapon that he did not use, 
including on his own people. I deeply believe, Mr. Chairman, 
the answer to your question is yes, and it would be utter folly 
for us to assume anything else.
    Chairman Gilman. Ambassador Butler, you recall that in 1998 
there were suspicions here in the Congress that the 
Administration was urging UNSCOM to proceed cautiously in 
dealing with Iraq and was counseling you to avoid 
confrontations with Saddam over his obstruction of UNSCOM 
inspections. Were those suspicions well founded, and were you 
being restrained at all by our own nation?
    Ambassador Butler. No. They were not well founded, and I 
was not so restrained. As Executive Chairman of the commission, 
it was my responsibility to determine what objects should be 
inspected when and by what teams and using what methods. I 
occasionally sought counsel from a number of members of the 
security council.
    Bear in mind, I worked for the council, not for Kofi Annan, 
not for the secretary general of the U.N. I was the head of a 
suborgan of the security council, a unique position, so I 
sought counsel from a number of members of the security council 
on an informal basis as I did my work, and very often I found 
their advice and views helpful.
    Sometimes I profoundly disagreed with them, including with 
views put forward by the United States. But I want to say this 
on the record: At no stage did I ever feel that the United 
States' representatives crossed the line that they should not 
have crossed between having the right to put their views to me 
and, on the other hand, accepting my unique responsibility for 
making the operational decisions, and those are the facts.
    Chairman Gilman. Do you see any parallels between your 
experiences with the Administration in 1998 and what the press 
tells us the Administration is now doing to UNMOVIC?
    Ambassador Butler. Mr. Chairman, that question lacks a 
little bit of specificity. When you say ``what the press tells 
us,'' there have been various press reports, but I mean that 
respectfully. We could talk at great length about this.
    Chairman Gilman. Well, the contention is that they are 
holding back UNMOVIC's movements forward.
    Ambassador Butler. I have been concerned about a number of 
aspects of UNMOVIC. First, it has been given the right mandate, 
that is, to--UNMOVIC has the right mandate. It has been told to 
bring to final account the weapons of the past and to construct 
a new, comprehensive monitoring system.
    By the way, Mr. Chairman, that bringing to account the 
weapons of the past is exactly the same list as the one I gave 
to Iraq in June 1998. It is still there. Now, but that is where 
the similarities between UNMOVIC and the operation I led end. 
It has the same mandate, but nothing else is the same. It has a 
different political responsibility. The head of UNMOVIC works 
for the secretary general. I did not. I worked under the 
security council. He has less independence. He is not able to 
recruit staff in an independent way as I did. He is much more 
subject to continual riding of shotgun on him, political 
direction, by members of the security council, and in that 
context I call attention to this.
    Again, something that has been overlooked, and I want to 
put it on the record: On the 14th of April, last year--sorry--
14th of April 2000, the Russian ambassador wrote a letter to 
the security council saying, we may have agreed to UNMOVIC 
getting under way, but we tell you--this is in writing--look it 
up--we tell you that we will not approve of any arms-control or 
monitoring arrangements of which Iraq does not approve. That 
sounded to me awfully like a Russian letter putting the fox in 
charge of the chicken coop. That is not the way we operated 
under UNSCOM.
    So I have grave doubts that if Iraq changes its present 
position and lets UNMOVIC into Iraq, that it will be permitted 
to do anything like a satisfactory job. That is not to say a 
disrespectful word to Dr. Hans Bleeks or his staff. I think 
they are professionals. They would want to do a good job, but 
whether Iraq and some of the members of the security council 
will allow them to do so is another matter.
    Finally, there was a report--this gets to the core of your 
question, Mr. Chairman--there was a report that Dr. Bleeks, the 
head of the new organization, had drafted a report to the 
security council saying that he was ready to commence 
inspections but that within a small private meeting of the 
commission of advisers he had been asked to amend that and slow 
it down and that the United States representative present that 
day had not objected to that position as advanced by Russia, 
France, and China.
    I was not present during that meeting, and I do not know if 
those media reports on that are a fair representation of what 
happened. You will have to ask the Administration about that, 
but that is what I think you were referring to. But I do know 
this, that last Friday, when the security council, in full 
session, took Dr. Bleek's report that indicated in this 
modified version that he was more or less ready to start, there 
was a resounding silence. Where was the council saying good and 
turning to Iraq and saying, ``He is ready. Are you?'' Not a 
word. And I think that is a matter of grave concern.
    [The prepared statement of Mr. Butler is available in the 
appendix.]
    Chairman Gilman. Thank you, Ambassador Butler. One more 
question of you: To the best of your knowledge, is Saddam 
developing viral agents that would be weapons capable?
    Ambassador Butler. Viral agents? You said V-I-R-A-L?
    Chairman Gilman. Yes.
    Ambassador Butler. I do not know that degree of detail 
today. I will rest on what I said earlier. What we have known 
of the past and we know of is motive means an opportunity. It 
would be folly to assume that he is not doing just that.
    Chairman Gilman. And, Mr. Solarz, has the Clinton 
Administration been serious about its professed policy toward 
Iraq of regime change?
    Mr. Solarz. No. I do not think it has, but let me say that 
I am not convinced that the Congress has been fully serious 
either, in the sense that it did adopt the Iraq Liberation Act, 
for which I applaud the Congress and particularly those on this 
Committee, like yourself, Mr. Chairman, who supported it. But I 
do not think there has been a real appreciation on the part of 
the Congress and those who support the Iraq Liberation Act, 
that this cannot possibly be achieved without the cooperation 
of countries like Kuwait, Turkey, and Jordan, who are very 
dubious about the ability of the Iraqi opposition to achieve 
this on their own and who will only be willing to cooperate if 
the United States makes it clear that we are serious about this 
and we are in it all the way, and that we will do whatever 
needs to be done to succeed, including the use of American 
military power and even of American ground forces, if that is 
necessary. And if we are not prepared to do that, then I think 
there is little hope of----
    Chairman Gilman. And if that is demonstrated, do you think 
that those countries, Kuwait, Jordan, Turkey, would agree to 
support this policy?
    Mr. Solarz. I certainly think at least one of them would, 
Kuwait. I would hope the others would also. I would put it this 
way. I think that a demonstration of our resolve is an 
absolutely necessary condition for securing their cooperation. 
I think there is a reasonably good chance they would cooperate, 
but without that demonstration of resolve, there is no hope 
whatsoever.
    Chairman Gilman. Well, I want to thank both of our 
panelists for focusing attention on this critical issue. Mr. 
Gejdenson.
    Mr. Gejdenson. Thank you. Mr. Solarz, there is nobody in 
this town or any other town that I respect more for their 
knowledge and ability to articulate a message. There is no one 
whose knowledge of foreign policy that I have greater respect 
for.
    Mr. Solarz. I am getting nervous now.
    Mr. Gejdenson. No, no, no, but I think here, you know, we 
have parted company. I do not know any country on this planet 
that has demonstrated the resolve against Saddam Hussein that 
we have. In the Security Council our closest friends and allies 
abandon us regularly on this. You know, when you say there are 
countries in the region who would join us in military action, 
virtually every country in the region's major papers, often 
assumed to be arms of the government, have editorials attacking 
us for sustaining the present embargo. About the only place we 
do get some support is for an indictment, which is a noble 
cause.
    You know, it seems to me that the hope that people who 
spend their days in the lobbies of the hotels in London and 
France are going to lead a revolutionary effort in Iraq just 
absolutely argues against everything we have seen in history, 
and the last time we encouraged people to rise up, the Bush 
Administration let Saddam Hussein slaughter them. So the 
history here is not good. The indication from the people in the 
region is they do not want to do anything. Our Security Council 
members, two of them, now have sent planes into Iraq--never 
mind about supporting armed resistance.
    I come to the conclusion that Americans do not want to see 
their boys in there with airplanes and tanks knocking out Iraqi 
ground forces moving in on armed resistance. We are back to the 
Contras here.
    Mr. Solarz. Mr. Gejdenson, let me say at the outset that my 
affection and respect for you, which is enormous, is in no way 
diminished by our disagreement on this issue. But we do have a 
genuine disagreement on this issue, and let me tell you why.
    First of all, with respect to the attitude of the countries 
in the region, there is no doubt in my mind that without 
exception they would all be delighted if Saddam were to vanish 
tomorrow. They recognize that he is a serious threat. In a way, 
he is more of a threat to them than he is to us simply because 
they are in his neighborhood. But at the same time they do not 
want to poke a stick into a hornet's nest unless they are 
convinced that by doing so they are going to kill the hornets.
    Mr. Gejdenson. What do you base your assumption on? They 
are not happy with the embargo, and a lot of us are not happy 
with the embargo. I think the assessment is right. It is 
hurting the people. It is not hurting Saddam. But in every 
confrontation we basically have to drag them along kicking and 
screaming, and we have to do all of the work. Where is your 
sense that they want to engage this?
    Mr. Solarz. Well, I have met with the leaders of those 
countries. I have been there, and it is very clear to me that 
they view Saddam as a very, very serious threat. The problem 
they have is that given what appears to them to be our 
unwillingness to commit the kind of military power that would 
be needed to bring the regime down, they fear that the current 
policy achieves nothing in terms of eliminating the regime----
    Mr. Gejdenson. Not to interrupt you, but, you know, none of 
them believe that Mr. Chalabi and his friends could ever be 
capable enough to remove Saddam Hussein, not one of them. I 
talked to every intelligence person in the region, virtually. I 
have talked to every head of state in the region, virtually. 
They all tell me that these guys are not on the level as far as 
a military threat, and I think you have to agree, we are not 
going to use our force to stop Saddam's tanks, just like George 
Bush did not.
    And let me just ask you one more. I hate to cut you off, 
but you are so smart, I have to be on top of every one of your 
statements, or I will get in trouble with you. The Turks do not 
want an independent Kurdish state. They are not going to do 
anything that takes Saddam Hussein's boot off the back of the 
Kurds because then they have got a Kurdish problem.
    Mr. Solarz. As I made clear in my testimony, I agree with 
you that none of the countries in the region think that the 
Iraqi National Congress, on its own, even with American arms, 
can overthrow Saddam Hussein, which is precisely why they are 
unwilling to cooperate in an effort to provide military 
assistance and sanctuaries to the Iraqi opposition. But if they 
believe that the United States was prepared to commit its 
military power to the achievement of this objective--let me 
just finish--then I think there is a good chance they would be 
willing to cooperate.
    Now, you say, isn't it obvious that we are not prepared to, 
in effect, reengage in a military effort to bring down the 
regime in Baghdad? And my answer to you is, as I said in my 
testimony, at the moment you are absolutely right. If the 
president were to get on national television tomorrow and make 
a speech saying that he is reintroducing American ground forces 
into the region, and we are soon going to commence an effort to 
overthrow the regime there, and there might be American 
casualties, it would be met with apathy at best and incredulity 
at worst.
    But I also believe that the American people are unprepared 
to accept the existence of weapons of mass destruction in the 
hands of someone like Saddam Hussein. That is why Secretary 
Cohen said on national television, holding up a five-pound bag 
of sugar, that this could kill half the people in Washington, 
DC, if it was filled with anthrax.
    And at the point at which we acquire unimpeachable and 
unmistakable evidence that, in fact, Saddam is rebuilding his 
weapons of mass destruction, and I think it is only a matter of 
time before we do so, under those circumstances I think the 
American people and the Congress would be prepared to support, 
particularly if some other countries were willing to join us, 
and I think a number would, an effort to eliminate that threat 
by bringing down the regime. The alternative, Mr. Gejdenson, is 
to accept an Iraq which has a growing arsenal of weapons of 
mass destruction, where, based on Saddam's previous track 
record, it is only a matter of time before he uses them again.
    Mr. Gejdenson. Well, Mr. Solarz, I tell you--again, I go 
back to my fundamentals here--we can barely keep peace-keeping 
troops in Kosovo. We have a situation where all of our allies 
seem to be abandoning us in any serious confrontation with 
Saddam Hussein. There is no regional power that I have spoken 
to that thinks that the resistance has any ability without a 
massive, American military force. When we had a massive, 
American military force, international force, on the ground, 
the Bush Administration chose not to remove Saddam Hussein. 
When you add all of these things up, this is, you know, more 
hope and prayers than substance, you are basing your assessment 
on.
    Mr. Solarz. If I can make one other point here, Mr. 
Gejdenson. The Administration itself has said that the 
acquisition of weapons of mass destruction by Saddam is a red 
line and that we would retaliate militarily, although they have 
not said for what purpose and against what targets. As 
Ambassador Butler has pointed out, chemical and biological 
weapons can be made in facilities half the size of this hearing 
room. It is almost, by definition, impossible to eliminate them 
by surgical air strikes.
    So I would suggest that if, in fact, the acquisition of 
weapons of mass destruction by Saddam Hussein is a red line, if 
we believe, as I do, that it poses an unacceptable threat to 
vital American interests and to our friends in the region, then 
we need to recognize that the only way to prevent the 
acquisition of weapons of mass destruction by Saddam is to 
eliminate the regime which he heads. And in order to eliminate 
the regime which he heads, I agree with you, the use of 
American military power would be necessary.
    Now, you point out, quite rightly, that it is difficult to 
sustain support for a much more limited and benign military 
presence in Kosovo. But the difference between Kosovo and Iraq 
is that even in a worst-case scenario Mr. Milosevic does not 
threaten the United States or our allies with weapons of mass 
destruction. Saddam Hussein does, and I think the American 
people can recognize that distinction and respond to it.
    Mr. Gejdenson. Thank you, Mr. Chairman.
    Chairman Gilman. The gentleman's time has expired. Thank 
you, Mr. Gejdenson. Mr. Rohrabacher.
    Mr. Rohrabacher. Yes. I would remind Mr. Gejdenson, when he 
said we are back to the Contras, that the Contras won, and the 
fact is that the Sandinistas were defeated, and you have 
democratic elections in Nicaragua, and, quite frankly, had 
there not been so much opposition to the strategy of the 
Contras by certain American elements, we would have probably 
won a lot sooner in Nicaragua. And the Sandinistas have still 
continued to lose every election whenever there is a free 
election in Nicaragua because they were never popular. Saddam 
Hussein is not popular.
    I remember all of the experts telling us, when I was in the 
Reagan White House, the Mujahadin do not have a chance to 
defeat the Russians, and guess what? The Russians left. The 
people of Iraq----
    Mr. Gejdenson. Will the gentleman yield?
    Mr. Rohrabacher. I certainly will.
    Mr. Gejdenson. The Contras did not win the war. The 
Sandinistas lost the election, but on a better note, we might 
have been better off if the Russians stayed in Afghanistan and 
the Mujahadin----
    Mr. Rohrabacher. One moment, Steve, reclaiming my time. I 
think this body lost a great asset when Steven Solarz left this 
Committee and left the House of Representatives, and he has my 
great respect. I do not believe that we can muster public 
support behind any type of ground effort against Saddam 
Hussein. I just do not believe that is possible. But I do have 
more faith that the people of Iraq and others through other 
means could get rid of Saddam Hussein. And I am going to ask 
the question, unless you get to that, but I have to put a 
couple of things on the record here as well.
    Mr. Butler, you are saying that the sanctions do not work 
except to hurt the people of Iraq. Is that right?
    Ambassador Butler. Uh-huh.
    Mr. Rohrabacher. There have been a lot of people asking me 
to oppose the sanctions because of that, and my reaction has 
been that that is the only real leverage we have except 
American military action. What is the other formula?
    Ambassador Butler. Thank you, Mr. Rohrabacher. Let me, Mr. 
Chairman, reiterate and perhaps expand in a very brief way what 
I said about sanctions. Sanctions were imposed upon Iraq as the 
means of bringing about its compliance with the security 
council's demand that it leave Kuwait, that it get out of 
Kuwait.
    Mr. Rohrabacher. Right.
    Ambassador Butler. When it refused to obey that command and 
was obviously unmoved by the sanctions introduced to back it 
up, a force was put together, and it was militarily removed 
from Kuwait. So there was the first instance where sanctions 
did not quite do their job.
    Secondly, when Iraq was removed from Kuwait, the sanctions 
were then maintained and, in fact, extended and connected to 
disarmament performance. I am making the simple and obvious 
point that as Saddam has been able to evade his obligations to 
be disarmed and to be monitored that he does not make weapons 
of mass destruction in the future, the sanctions in that sense 
have not done their job in bringing about compliance with the 
disarmament law.
    Mr. Rohrabacher. What is the other side of the coin, then? 
What is your solution, because obviously----
    Ambassador Butler. Okay. Sanctions are now also crumbling 
because of Iraq's success in the black market and now because 
Iraq has been supported in its avoidance of sanctions in 
pulling down the edifice of sanctions by no less than Russia 
and France and possibly two dozen other countries whose 
businessmen are filling the hotels of Baghdad right now.
    I welcome the opportunity to reiterate what I propose to be 
a solution to this. It is what I called my fourth red line. 
Steven Solarz was talking about direct military action. I think 
that is one possible approach, but I had actually mentioned 
this fourth red line, which is to go to the Russians and make 
clear to them that it is not acceptable to the United States 
for it to behave in the way that it is toward Saddam.
    Mr. Rohrabacher. Okay. Now, Mr. Butler, I have to believe 
that our Administration has done that.
    Ambassador Butler. Oh, do you?
    Mr. Rohrabacher. I have to believe that our Administration 
has gone to the Russians and said, we do not accept what you 
are doing in Iraq. Steve, let me ask----
    Ambassador Butler. Sorry. Could I just----
    Mr. Rohrabacher. I only have 5 minutes, and I have got to 
give Steve the last word on this.
    Ambassador Butler. Okay.
    Mr. Rohrabacher. But let me just say, it seems to me in the 
very beginning, at the very first briefing I had on this, on 
Saddam Hussein and the war that we were about to conduct with 
Iraq--I remember that briefing--it was in the secret room there 
in the Capitol that we all get briefed in--I remember going to 
Dick Cheney and Colin Powell and telling them, do not start 
this unless you are committed to finishing it, and finishing it 
means Saddam Hussein is dead, dead. Kill Saddam Hussein. I told 
them that, and very emphatically, I think that is what we still 
have to do, frankly, to get this over with. Steve, you have got 
the last word.
    Mr. Solarz. Just very briefly, Mr. Rohrabacher, you 
mentioned both Afghanistan and Nicaragua as examples of where 
we helped indigenous freedom movements achieve their 
objectives. We have to keep in mind that in the case of 
Afghanistan we could not have done what we did without the 
cooperation of Pakistan and in the case of Nicaragua we could 
not have success without the help of Honduras. If we are going 
to help the Iraqi opposition, we need the help of a contiguous 
country that is willing to assist in the effort in terms of 
avoiding sanctuaries and facilitating the flow of equipment. 
And in order to get that help, we have to be prepared to make a 
commitment which apparently you feel we are not prepared to 
make.
    I can only say that if, at the end of the day, it is the 
conclusion of you and your colleagues and of the next president 
that we are not prepared to use American military power in 
combination with the Iraqi resistance to overthrow the regime, 
then it would be better in terms of preserving American 
credibility to abandon that objective and to rely on 
containment alone, because we pay a very heavy price in the 
erosion of our credibility when we establish a national 
objective and then do nothing to effectively implement it.
    Mr. Rohrabacher. One last thought, and that is the people 
of Iraq are not our enemy. Saddam Hussein is a brutal dictator. 
They know how monstrous he is, and, of course, we would applaud 
anyone within that society, whether the Iraqi military or 
whatever, of getting rid of this problem for both our peoples.
    Chairman Gilman. Thank you, Mr. Rohrabacher. Mr. Ackerman.
    Mr. Ackerman. Thank you very much, Mr. Chairman. We miss 
you, Steve, and I think that your testimony today is ample 
reason why. I would just like to point out to my colleagues who 
might not have been here during much of Chairman Solarz's 
tenure that he had so many accomplishments in the arena of 
international relations.
    He is probably the person most singularly responsible for 
the downfall of Ferdinand Marcos and so many other things. 
Certainly, when the final chapter might be written about the 
history of the Persian Gulf War, I think all historians will 
acknowledge that it was the leadership of Steve Solarz, who in 
a nonpartisan way went to the White House and told President 
Bush that there would be, although a minority, certainly enough 
of us Democrats who would be willing to act in a nonpartisan 
fashion should he choose to avoid the constitutional crisis of 
intervening absent bringing the matter to the House of 
Representatives and was able to convince the president of the 
United States that if he did that, that we would act in a 
nonpartisan way.
    And certainly those who were either in the House or watched 
it on television, it certainly was one of the finest several 
days in the history of this Congress, listening to the debate 
that had nothing to do with the petty politics that overtakes 
us today as to who scores more points for or against an 
Administration, but a genuine intellectual debate on foreign-
policy matters as to what was in the best interests of the 
United States. And we certainly miss that kind of thing.
    I have a question, Steve, listening to your remarks and 
reading some of your testimony. You seem to be rather hawkish 
on going back, if I could use that term for someone who started 
out as an absolute dove.
    Mr. Solarz. When it comes to Iraq, I am not a hawk; I am a 
vulture.
    Mr. Ackerman. And your appetite is vociferous.
    First, let me ask this question, piggy-backing on something 
that our colleague from California said. Was it a mistake not 
to stay the extra couple of weeks after the president so 
capably put together the international coalition? And I know 
the argument that those who were fearful that the coalition 
might fall apart was out there, but was it not a tragic mistake 
not to continue on until the regime was brought to its knees?
    Mr. Solarz. First, thank you for your very kind comments. I 
am really quite touched, and I mean that sincerely, Mr. 
Ackerman. It is certainly tempting, in retrospect, with the 
benefit of hindsight, to say that we should have stayed the 
course and gone to Baghdad, and I suspect if we had, we would 
have been greeted as liberators, not fought as potential 
occupiers. But let me say that I think the real mistake was not 
in refraining from marching to Baghdad because that would have 
utterly unraveled the coalition. The real mistake was, when the 
Infitada or the uprising arose in Iraq in the immediate 
aftermath of Desert Storm, in not using our air power to ground 
Saddam's attack helicopters and to eliminate his armor and 
artillery. We stood by and did nothing while Saddam's 
Republican Guard and regular military formations slaughtered 
the Iraqi people who rose up against him. And I have no doubt 
that if we had been willing to use our air power to ground his 
attack helicopters and destroy his armor and artillery, the 
balance of power would have shifted against the regime, and the 
opposition would have prevailed.
    I remember several years ago I was on a panel at the 
centennial of Stanford University with former Secretary of 
State Schultz discussing the Gulf War, and Secretary Schultz 
made, I thought, a brilliant point. He said, at the end of the 
war General Schwartzcoff agreed to let the Iraqis use their 
helicopters presumably for the purpose of communicating with 
their units in the field. And when it became clear they were 
using the helicopters to kill the Iraqi opposition, and 
Schwartzcoff was asked about this, he said, well, he was 
snookered by the Iraqis who deceived him. And Secretary Schultz 
said, I never understood why he simply did not unsnooker 
himself. We won, they lost, and we could easily have said that 
we had not given them permission to use these helicopters to 
suppress an indigenous uprising.
    Mr. Ackerman. The concern that existed then, that we would 
lose the coalition, and accepting that as a legitimate concern, 
seems to fly in the face of the suggestion that we used both 
air power and commit to using ground forces, if necessary, 
absent putting together a coalition today. It seems to me that 
forming a coalition today would be a lot more difficult absent 
Saddam invading yet again one of its neighbors.
    How do we reconcile that? If we take a unilateral action--I 
know that you recall in 1981 the Israelis did that and were 
condemned by the United Nations and us as well. Luckily, they 
did that; otherwise, we might not have been so lucky in the 
last war.
    Mr. Solarz. Well, I shudder to think what would have 
happened if the Israelis had not destroyed the Osirak reactor. 
You put your finger on a very serious problem. There is no 
question that it would be very difficult to reassemble the 
coalition.
    In fact, I would go so far as to say that it would be 
impossible to reassemble the exact coalition which existed 
then, but I do not think it would be impossible to put together 
perhaps a lesser coalition of countries that would share our 
view that the possession of weapons of mass destruction by 
Saddam Hussein is unacceptable and in violation of very 
important security council resolutions. Keep in mind----
    Mr. Ackerman. Let me just follow up on that, if I can, on 
the foreign-policy issue. If we were to do that, does it not 
set a precedent that maybe should be set, I do not know, that 
we can, with coalition partners or absent them, based on pre-
emptive rationale, move in against any country that is 
developing weapons of mass destruction without them taking an 
aggressive act against some neighbor?
    Mr. Solarz. It is quite true that Iraq is not the only 
country that has weapons of mass destruction, but it is true 
that it is the only country since the end of the Second World 
War that we know for a fact has used those weapons not just 
once, but twice, not just against its enemies, but its own 
people. By twice, I mean in two separate contexts.
    Mr. Ackerman. The two-strikes-and-you are-out policy.
    Mr. Solarz. Right. You know, people here recall the use of 
chemical weapons by Iraq against the City of Halabga in 
northern Iraq as part of Operation Anfal. What most of them do 
not remember is that Saddam used chemical weapons on numerous 
occasions in northern Iraq against his own people, and I think 
this is what distinguishes Iraq from other countries.
    It is always preferable in situations like this to have the 
imprimatur of a security-council resolution, but under 
circumstances where it is not obtainable, if we believe that 
vital American interests are at stake, I believe we should be 
prepared to act without it, particularly if there are other 
countries that are willing to join with us, and in this case I 
think there would be some other countries. I think the U.K, for 
example, would be willing to participate. I think Kuwait would 
be willing to participate. I suspect, with vigorous American 
diplomacy, we could get a number of other countries to join 
with us as well.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Ackerman. Thank you.
    Chairman Gilman. Mr. Bereuter.
    Ambassador Bereuter. Thank you very much, Mr. Chairman. I 
heard your testimony. I appreciate it very much, gentleman. I 
was not here for all the question period, but I do have a 
question. I will start with our distinguished former colleague, 
Mr. Solarz, and ask you to comment, too, Mr. Butler, if you 
wish.
    When the Clinton Administration launched Operation Desert 
Fox in the end of 1998, it claimed that the loss of U.N. 
weapons inspectors would be more than offset by a degradation 
which would be inflicted on the Iraqis' weapons capabilities, a 
degradation by our air strikes. Few would have imagined that it 
would be 2 years before the U.N. would be ready to resume 
inspection. In retrospect, Mr. Solarz, do you think it was a 
mistake for the Administration to have launched Operation 
Desert Fox, given the outcome?
    Mr. Solarz. I think it was a mistake, Mr. Bereuter, for the 
United States not to respond to the eviction of the U.N. 
inspectors by taking the position that unless they were 
immediately permitted to return under circumstances where they 
could go where they wanted and look at what they wanted to look 
at, that we would endeavor to take sustained military action, 
not simply for the purpose of punishing the regime, but for the 
purpose bringing it down.
    I think that afforded us a pretext or a justification which 
would have enabled us to have responded in a much more robust 
and vigorous fashion not for the purpose of simply making a 
point, but for the purpose of solving the problem, which in 
this case, I think, clearly requires bringing down the regime, 
which obviously is not prepared to agree to any kind of 
inspections which will obligate it to divulge or disgorge its 
weapons of mass destruction.
    Mr. Bereuter. Thank you. Ambassador Butler, would you care 
to comment on whether, retrospectively, this is a good idea? 
What would you say about the degradation of the weapons systems 
that has taken place and how important is that vis-a-vis the 
progress you say has been made on moving ahead with missile 
extension and weapons development?
    Ambassador Butler. In November 1998, when Iraq cut off our 
work, it was about to be bombed, and you will recall that 
President Clinton called that off at the last hour. Iraq then 
solemnly promised to resume full cooperation, and I was given 
the job of reporting to the council after an elapsing period of 
time whether or not that had happened. A month later, I 
reported the truth, which is not only had that not happened, 
but they had imposed new restrictions on us. As a consequence 
of that report, the United States and the United Kingdom 
decided to take military action that became Desert Fox. Desert 
Fox, it was then said, would degrade Iraq's weapons-of-mass-
destruction capability. Two years later, I do not believe it 
had that effect.
    What has happened is that inspection and monitoring has 
been cut off. I said then, Mr. Bereuter, that the reason, if 
there was a justification for bombing Iraq at that time, it was 
because they had cut off the inspection and monitoring. It 
followed logically that what must happen at the end of that 
bombing, if it is to have been successful, is that that 
inspection and monitoring is the first thing that must be 
restored. That has not happened.
    Mr. Bereuter. Ambassador, thank you. One of your former 
subordinates in UNSCOM, Scott Ritter, has argued that UNSCOM's 
efforts were misguided, and more importantly, that 
``basically,'' a quote, ``we need not worry about Saddam's 
weapons program because he has been qualitatively disarmed for 
a very long time.'' What do you make of Mr. Ritter's claims?
    Ambassador Butler. I find them deeply sad. They are utterly 
without truth or foundation. The notion of qualitative 
disarmament in this context is meaningless. What I find sad 
about it is that a man who was once a very able inspector has, 
for reasons that are beyond my ability to discern, decided to 
enter into this kind of justification of the present 
circumstances that I find sad and wrong.
    Mr. Bereuter. Well, he certainly has not been qualitatively 
disarmed for the long term, has he?
    Ambassador Butler. The concept has no meaning, but the 
answer, quite simply, is absolutely not.
    Mr. Bereuter. Thank you, gentlemen, very much for your 
testimony on this important issue. Thank you, Mr. Chairman, for 
holding the hearing.
    Chairman Gilman. Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman. I would first like to 
comment on the sanctions because so much of the world seems 
fooled by Saddam. He has taken tens of millions of people 
hostage. He kills them through starvation and the deprivation 
of medical care, and then he garners sympathy not only for 
those he kills, but for himself. I think the record of this 
hearing needs to report that Iraq is exporting food, both food 
that it grows itself and food that it acquires through the U.N. 
program, that it has exported medicine, and the branding of 
that medicine indicates that it has now been re-exported.
    And one can only shudder to think of how little of its oil 
revenue Iraq would devote to food and medicine if Saddam was 
able without legal restriction to devote all of his oil revenue 
to the production of weapons. This is a man who may need no one 
in his country except his own military and his own political 
supporters. In the absence of the current regime of control 
over the revenues of Iraqi oil exports, the Iraqi people would 
be suffering an awful lot more than they are today.
    I would like to pick up on Mr. Solarz's approach that we 
should be providing more than fax machines to the Iraqi 
opposition. And I agree with him in part because it is critical 
to our national security that we stop Saddam from developing 
weapons of mass destruction, but, Ambassador Butler, if Saddam, 
perhaps in fear of a level of action that far exceeds what we 
are doing now, somehow Mr. Solarz was directing our activities 
instead of those with a lot less willingness to take action, if 
he agreed to reinstitute that the inspection regime, could that 
regime provide assurance to the American people that Saddam was 
not developing weapons of mass destruction, at least nuclear 
weapons?
    Put another way, is there anything other than the fall of 
Saddam that can allow people of the United States to feel that 
there is not going to be a maniac in Baghdad with nuclear 
weapons in 15 years?
    Ambassador Butler. Well, taking your second question first, 
I think the answer is that the Iraqi people have suffered too 
much under him, and the world has been too gravely threatened 
for it to be tolerated much longer. I do not know whether 
Steven Solarz's suggestion is the only way to do this, but my 
direct answer to your question is that it would be better for 
all concerned for Saddam to be no longer in charge of the 
government of Iraq.
    Mr. Bereuter. Clearly, that would be better, but if under 
duress Saddam were to consent to the reinstitution of an 
inspections regime----
    Ambassador Butler. I would like to come to that, yes.
    Mr. Bereuter. Okay. Go ahead.
    Ambassador Butler. You asked specifically with respect to 
nuclear weapons. I think we have to be very honest with 
ourselves about what arms control and monitoring can and may 
not achieve. If you have got an utterly determined criminal, 
which I think is probably a fair description of Saddam, at the 
head of a government who is utterly determined to break the 
law, then it is hard to be completely assured that they will 
not be able to do so.
    What arms-control monitoring does is tells you that that is 
what is happening. On the whole, it can do that. If you ask of 
it to prevent a criminal or insane personality from behaving 
according to their own decisions, then you are asking too much 
of it. But the chances are exceedingly good that with an 
adequate monitoring system in Iraq, that we would have notice 
that such behavior was taking place. We would then be in a 
position to take action to prevent it from going further.
    And finally, absent such inspection now, we are in the 
worst possible situation. Every day that passes means that 
clandestine behavior can take place and, I strongly suspect, 
has been taking place.
    Chairman Gilman. The gentleman's time has expired. Mr. 
Sanford.
    Mr. Sanford. I thank the Chairman. I have come to the 
conclusion that the no-fly zone over Iraq is just a total waste 
of money. Do you all agree? I would ask whoever wants----
    Mr. Solarz. I am sorry. Would you repeat the question?
    Mr. Sanford. I have come to the conclusion that the no-fly 
zone over Iraq is a total waste of U.S. taxpayer money. Do you 
agree or disagree?
    Mr. Solarz. No. I do not agree because were we to eliminate 
the no-fly zone, I think it would be an open invitation for 
Saddam to re-establish his military control over the rest of 
the country.
    Mr. Sanford. You are saying he does not militarily control 
the country now?
    Mr. Solarz. Well, he does not militarily control northern 
Iraq, and that provides a certain measure of freedom, as it 
were, and safety for a substantial number of Iraqis who live in 
northern Iraq.
    Mr. Sanford. Are you saying that there is not repression in 
northern Iraq?
    Mr. Solarz. Pardon?
    Mr. Sanford. There is not repression in northern Iraq?
    Mr. Solarz. Well, Iraq, in effect, the regime is not 
present in northern Iraq to some extent because of the no-fly 
zone, and I think that if we were to eliminate the no-fly zone, 
it would be an open invitation to Saddam to send his forces 
into the north and, in effect, resubdue the entire Kurdish 
population.
    Mr. Sanford. Then let us take that logic, then, and apply 
it to the southern no-fly zone, too. Then you would say that 
the no-fly zone over southern Iraq is a waste of money?
    Mr. Solarz. No. I would not say it is a waste of money 
there because I also think that it constitutes some deterrent 
against Saddam threatening his neighbors. Keep in mind, just 
within the past week or so an Iraqi plane not only violated the 
no-fly zone; it overflew Kuwait and, I think, even Saudi air 
space, and we did absolutely nothing.
    Mr. Sanford. Wait. Let us back up here, though. If you 
actually look at the 1999 numbers, there were 600--that is one 
breach--there were 16 breaches in 1999 that were in the no-fly 
zone. And so, in essence, about two times a day he is going out 
there with aircraft and breaching the no-fly zone in current 
form. And that is, it just seems to me basically press-release 
foreign policy, wherein you have two breaches a day. We do not 
fly every day, as you know, over there. Boys in F-16's will 
leave Turkey tomorrow morning or the morning after--I do not 
know which morning they are going to get up, but, you know, a 
couple of days a week, go up over the mountains of Iraq, 
refuel, and go down, for instance, in the northern no-fly zone, 
but it is not a regular event.
    Mr. Solarz. In my view, the problem is not that we are 
doing too much; it is that we are doing too little, and I think 
one has to view----
    Mr. Sanford. So then I am just taking the logic that you 
have been using throughout the hearing, which is for more, so 
in its present policy it would be a waste of money.
    Mr. Solarz. Well, I think that we have to distinguish 
between whether we want to bring down the regime or whether we 
simply want to contain it. I have argued, of course, that 
containment is a very dubious proposition with someone like 
Saddam.
    Mr. Sanford. Which is why I thought you would not naturally 
agree with the idea that the no-fly zone is a waste of money 
because that is basically what you have been arguing.
    Mr. Solarz. Right. But I will tell you what would concern 
me, and there is a good deal of technical merit to your line of 
argument, and I have to confess, it is one I had not considered 
before, and I will reflect on it. But I will tell you 
instinctively what concerns me about it, and that is that if, 
in effect, we end up with a policy of containment, which is 
more or less what in practice we have now, doing something like 
eliminating the no-fly zone inevitably will diminish 
credibility----
    Mr. Sanford. Let us not even call it that, though. Let us 
call it the sometimes no-fly zone except for two times a day 
when we breach it.
    Mr. Solarz. It would be seen as a victory by Saddam. It 
would be seen as a further diminution of American resolve, and 
given his capacity for miscalculation----
    Mr. Sanford. But the very logic that you have been using 
has been if we are going to do something, let us really do it 
because if we say we are going to do something and really do 
not do it, then we really hurt our standing around the world 
and particularly in that region of the world.
    Mr. Solarz. Well, that has been the logic of my argument. 
That is with respect to the stated objectives of the Iraq 
Liberation Act, which calls for the destabilization and removal 
of the regime. The stated purpose of the no-fly zone is not to 
bring down Saddam, but, in effect, to deter him from the 
extension of his military power.
    Mr. Sanford. And, again, I would just say, and I just want 
to say for the record, it strikes me, because we had an 
undersecretary from the Administration testify a couple of 
months back, and I said, what exactly is the policy? They said, 
well, basically as long as Saddam is around, we are going to be 
around. And I said, that is very unsettling for me because in 
my home state of South Carolina Strom is 2 years out, basically 
a year and a half out, from making a hundred. If this guy has 
that kind of longevity, you are looking at a billion, one, 
billion, two, a year over another 50 years essentially, and $50 
billion of taxpayer expense on something that I think we would 
both agree has very, very limited----
    Chairman Gilman. The gentleman's time has expired. Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman. Let me thank our two 
witnesses for your very insightful and thorough presentation. A 
couple of questions I would just like to ask with regard to the 
whole issue of delinking military and economic sanctions as we 
look at a reexamination of our policy.
    We held hearings, I believe, earlier this year looking at 
what the impact of economic sanctions has been with regard to 
food and medicine, especially with regard to children, and the 
numbers are staggering. The humanitarian concerns, of course, 
are equally as important as our national-security concerns, and 
they should be. And somehow there are many of us who believe 
that strengthening military sanctions would make sense at the 
same time that we delink the economic sanctions from the 
military sanctions.
    What is your take on that, and how in our re-examination of 
our policy toward Iraq should we view economic sanctions and 
its impact on the people and what it is or is not doing?
    Mr. Solarz. It is a very good question and a very 
thoughtful one, and let me say that I do not believe we should 
wage war on children or on sick or elderly people. But in the 
case of Iraq my impression is that the main reason that there 
may be some who are suffering as a consequence of the sanctions 
has far more to do with Saddam Hussein than it does with the 
sanctions. For example, as, I think, has already been pointed 
out, Saddam has several billion dollars available for the 
purchase of food and medicines which he is not using for that 
purpose.
    In northern Iraq, which, in effect, is not under Saddam's 
control, in spite of the sanctions the children are not dying, 
and people are getting the medicines they need. There is a 
system for the distribution of food and medical supplies. The 
problem with eliminating the sanctions, in my view, is that 
given the nature of Saddam's regime, which clearly does not 
care a whit for the welfare or well-being of its own people, is 
that it would in no way, in my view, result in the sudden 
availability of food and medical supplies which the country is 
not able to now obtain because it can obtain them if it wants 
to. Saddam will use the resources he is able to get once the 
sanctions are lifted primarily for rebuilding his conventional 
military power and expediting the reconstitution of his weapons 
of mass destruction, and it would be a further indication that 
the resolve of the international community to contain Iraq had 
eroded further.
    So I suppose my answer to your question is that I have 
absolutely no faith whatsoever that the lifting of sanctions 
would help those who are suffering in Iraq, and the main reason 
is that the explanation for their suffering, to the extent that 
they are suffering, has everything to do with Saddam and his 
regime, which already has available resources--they are now 
pumping more oil than they did before the Gulf War--and not the 
sanctions themselves.
    Ms. Lee. No. I agree, but also I am wondering, though, has 
the imposition of sanctions taken this to another level in 
terms of the pain and suffering of the Iraqi people, especially 
children? We know that, you know, Saddam Hussein has done what 
he has done and will continue to until he is gone, but are we 
participating in a process that is creating more pain than 
would be the case had we not imposed the sanctions?
    Mr. Solarz. This is the impression which the Iraqi regime 
has assiduously attempted to create, and I must say, with 
considerable success, abetted in particular by those countries 
that are interested in profiting economically from the lifting 
of sanctions, not to sell food to Iraq, but to sell arms and 
other things that he can use for aggressive purposes.
    No. I think people are suffering because Saddam is not 
interested in feeding them or taking care of their health. He 
is interested in establishing his hegemony over the entire 
region. He has tried to do that twice now in a decade, first 
against Iran, then against Kuwait.
    You know, finally, let me just say that, in answer to your 
very thoughtful question, all Saddam would have to do to get 
the sanctions lifted is to agree to let the inspectors back in 
and go where they want and need to go to determine if he is 
complying with his obligation not to build weapons of mass 
destruction, but he refuses to do so.
    Why does he refuse to do so? It is obvious. Because he 
believes for his political and strategic and military purposes, 
he needs chemical and biological and perhaps nuclear weapons as 
well. And let me just say here in conclusion, if I might, that 
Mr. Sherman, who I see is not here now, said that what would 
happen if he had nuclear weapons in 15 years.
    The fact of the matter is, and I think Mr. Butler would 
agree with this, that if Saddam succeeded in obtaining fissile 
material on the black market, which is certainly a possibility, 
given what is happening in Russia, he has the know-how and the 
technical means to make nuclear weapons now, not 15 years from 
now.
    And lastly, with respect to how much faith we should have 
in the efficacy of inspections, if he could be persuaded to let 
the inspectors back in, it is important to remember that before 
the Gulf War the International Atomic Energy Agency had 
inspectors in Iraq monitoring Iraq's nuclear program, and it 
turned out after the Gulf War was over that Saddam had not one, 
but three separate nuclear-weapons programs, of which the IAE 
inspectors were utterly oblivious.
    So I have absolutely no faith, even if inspectors were 
permitted back in, that they could succeed in doing the job, 
and I come back to the view that if we really believe that the 
acquisition of weapons of mass destruction by Saddam Hussein 
poses an unacceptable threat to us and our friends in the 
region, the only way to solve the problem is to remove the 
regime that is intent on making them.
    Ms. Lee. Thank you very much.
    Chairman Gilman. The gentlelady's time has expired. Mr. 
Lantos.
    Mr. Lantos. Thank you, Mr. Chairman. I know we need to move 
on to a markup. I want to express my admiration for Ambassador 
Butler and my distinguished former colleague, Congressman 
Solarz, for their steadfast leadership on this issue, and I 
yield back the balance of my time.
    Chairman Gilman. Thank you, Mr. Lantos. Any other comments 
to be made? If not--Mr. Crowley. I am sorry.
    Mr. Crowley. I am sorry that I missed your testimony, but 
in going through your statement, Mr. Solarz, is it my 
understanding that you believe--first, let me preface it by 
saying that there has been a movement afoot here amongst many 
Members to pull back on the sanctions, and myself and 
Congressman Sweeney, in a bipartisan effort, have reached out 
to our colleagues to ask them to keep those sanctions imposed.
    My question to you is, is it your belief that the sanctions 
alone are not working and that more needs to be done?
    Mr. Solarz. I think it is obvious on the face of it that 
the sanctions alone are not working. The main purpose of the 
sanctions, the primary justification, was to induce and 
pressure Iraq into complying with relevant U.N. resolutions, 
originally not just those requiring it to give up its weapons 
of mass destruction, but also to pay reparations to Kuwait and 
other countries that suffered and to disclose what happened to 
several hundred Kuwaitis who were missing, who were presumably 
kidnaped by the Iraqis when they departed from Kuwait. He has 
not complied with any of those resolutions, so if that is the 
purpose of the sanctions, the sanctions, at least so far, are 
obviously not doing the job.
    The problem with lifting them is that not only would they 
not induce him to suddenly begin to comply, since he would feel 
he has been vindicated, but it would give him the additional, 
unfettered use of resources that he will use not to feed his 
starving people or to buy medicines to give to those who need 
them, because he has several billion dollars to do it how. He 
will use that money to rebuild his military power, and that 
would pose a very serious threat to our interests and our 
friends in the region.
    Mr. Crowley. And just for the record, and if someone else 
has already done this, neither yourself nor Ambassador Butler 
are in favor of lifting the sanctions. Is that correct?
    Mr. Solarz. That is correct.
    Ambassador Butler. That is correct.
    Mr. Crowley. Thank you.
    Chairman Gilman. The gentleman's time has expired. Just a 
2-minute closing statement by either of our panelists. 
Ambassador Butler.
    Ambassador Butler. Thank you, Mr. Chairman. I am very 
grateful to have been included in this exchange. I think it has 
been extremely useful. I will make, in conclusion, four very 
quick, summary points. What I think has been elucidated here 
today is that the problem remains the same. It is the existence 
of Saddam Hussein at the head of the government of Iraq.
    Secondly, the prime victims of him is actually the Iraqi 
people through his manipulation of sanctions and now the 
demonstration that he has given that even if sanctions were to 
be suddenly alleviated tomorrow, that he would not make the 
benefits of that available to ordinary Iraqis.
    Thirdly, the threat that he poses through reacquiring 
weapons of mass destruction is growing each day.
    And, finally, the solution to that problem, I think, lies 
through the security council and through the United States 
insisting to its Russian colleagues that it is simply no longer 
prepared to tolerate its breaking of consensus on the 
implementation of the council's own laws with respect to Iraq 
and instead preferring to return to a Cold War situation where 
Russia is, in fact, patronizing a rogue state, a person who 
should be indicted for having committed crimes against 
humanity, a person who is threatening by his own actions the 
stability of this world, especially through a breakdown of the 
treaties on the nonproliferation of weapons of mass 
destruction.
    Chairman Gilman. Thank you, Mr. Ambassador. Mr. Solarz.
    Mr. Solarz. Mr. Chairman, I basically said what I have to 
say. I will only conclude by indicating that I wish that we 
could solve the problem simply by telling the Russians that 
their attitude toward Iraq is unacceptable, but I fear that 
even were we to do that, and I assume we are, that I doubt it 
would solve the problem. The Russians do a lot of things we 
find unacceptable in Chechnya and elsewhere, and we make our 
views known, but they then go about doing what they think is in 
their interest.
    I think we need to recognize that much more will be needed 
than vigorous diplomatic representations in Moscow. And what I 
ask you and my former colleagues on the Committee and the new 
Members of the Committee who came after I left is to ask 
yourself some very hard questions about what we really need to 
do to deal with this problem.
    I fear that if we continue along the path we have been 
pursuing, that the time will come--I do not know if it is next 
year or the year after or 5 years from now--when Saddam, armed 
with weapons of mass destruction, renews his aggression against 
other countries in the region under circumstances where it will 
be much more difficult and dangerous to deal with him than it 
would be if we took resolute action now.
    Chairman Gilman. Thank you very much, Ambassador Butler, 
Mr. Solarz, for your very precise analysis of this crisis, and 
we appreciate your taking the time to be with us.
    [Whereupon, at 12:21 p.m., the Committee was adjourned.]




                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of The Honorable Benjamin A. Gilman, a 
 Representative in Congress from New York, and Chairman, Committee on 
                        International Relations
    The Committee on International Relations meets today to receive 
testimony from two very distinguished witnesses about the serious 
problems our nation continues to face in dealing with Iraq.
    Upon the conclusion of this morning's hearing, we will move 
directly to mark up a bill that I and a number of my colleagues 
introduced yesterday regarding the possibility of a unilateral 
declaration of statehood by the Palestinians. That bill, the ``Peace 
Through Negotiations Act of 2000,'' is intended to underscore our very 
strong conviction that such a unilateral declaration would undermine 
the Middle East peace process and threaten U.S. national interests in 
the region.
    But before we get to that issue, however, we are going to hear 
about another serious threat to U.S. interests in the Middle East, the 
threat posed by Saddam Hussein and his continued efforts to thwart 
international inspections of his weapons of mass destruction programs.
    The gravity of the threat posed by Saddam, and the inadequacy of 
our nation's response to that threat, has been highlighted by three 
articles that appeared in the Washington Post within the past month.
    The first article appeared on August 30th. In that story, it was 
reported that in late August the United States joined with Russia and 
France in the U.N. Security Council to block the new U.N. weapons 
inspection agency for Iraq--UNMOVIC--from declaring it was ready to 
begin inspections inside Iraq. The story quotes an unnamed U.N. 
diplomat as saying ``The U.S. and Russia agreed that it was not 
appropriate to give the impression that [UNMOVIC] was ready to go back 
into Iraq. . . . They cautioned that this might create a climate of 
confrontation at an inappropriate time.''
    If this story is true, the effort to avoid confronting Saddam. over 
his weapons of mass destruction programs has to be a low point in U.S. 
diplomacy toward Iraq. Turning off the U.N.'s new weapons inspectors at 
the very moment they were ready to begin their work can only have 
demoralized the inspectors and emboldened Saddam Hussein.
    Indeed, the very next day, on September 1st, the Washington Post 
reported that the United States was preparing to deploy Patriot missile 
defense batteries to Israel because of growing fears of a possible 
attack by Iraq. Clearly, the Clinton Administration had reason to 
believe that Saddam was thinking about climbing out of the box in which 
they claim to have put him.
    In the third article, on September 18th, the Washington Post 
reported that Secretary of Defense William Cohen had warned Saddam 
Hussein against renewed aggression after Iraq publicly accused Kuwait 
of siphoning oil from Iraqi oilfields and flew an Iraqi fighter jet 
across Saudi Arabian airspace for the first time in a decade. These 
actions by Saddam are reminiscent of his actions leading up to the Gulf 
War in 1990, and Secretary Cohen was right to issue his warning. The 
question for us, however, is why Saddam has chosen this moment to 
resort to his old habits.
    Here to help us make sense of these developments are two very 
distinguished observers of events in Iraq.
    Ambassador Richard Butler has direct experience dealing with Saddam 
Hussein as Executive Director of the predecessor organization to 
UNMOVIC--the U.N. Special Commission on Iraq, or UNSCOM.--from 1997 to 
1999. Prior to that he was a career diplomat in the Australian Foreign 
Service, where he served as Australia's ambassador to the United 
Nations, ambassador for disarmament, and ambassador to Thailand, among 
other posts. He is now with the Council on Foreign Relations in New 
York. I am especially eager to hear his assessment of where Iraq stands 
today on matters of disarmament, and what the actions taken by the 
Security Council last month with regard to UNMOVIC mean for the likely 
success of that organization.
    Joining Ambassador Butler is one of our former colleagues, and a 
friend to all of us here on the Committee, Steve Solarz. Steve served 
nine terms in the House of Representatives as a Democrat representing 
the great state of New York, and at various times he chaired our 
subcommittees on Asia and the Pacific and on Africa. Since leaving the 
Congress he has remained deeply engaged in foreign policy issues, and 
he has taken a special interest in the subject of Iraq. It is a 
pleasure to see you again here in our hearing room, and I hope you can 
give us some suggestions about what more we in the Congress should do 
about Iraq.
    We will hear first from Ambassador Butler, but before recognizing 
him, I will turn to our Ranking Democratic Member, Mr. Gejdenson, for 
any opening remarks he may have. Mr. Gejdenson?
                               __________
     Prepared Statement of The Honorable Stephen J. Solarz, Former 
                       Representative in Congress
    Mr. Chairman, I appreciate the opportunity to appear before your 
Committee. I commend you for holding this hearing and for your own 
prodigious and productive efforts to focus attention on the continuing 
threat to vital American interests posed by an unrepentant and 
unreconstructed Baathist regime in Iraq.
    It has been almost a decade since the United States and its 
coalition allies liberated Kuwait from the clutches of the Mesopotamian 
megalomaniac who continues to rule the roost in Baghdad. Since the 
triumph of coalition forces in 1991, George Bush and Margaret Thatcher 
are out of power, and Francois Mitterand and Hafiz Al-Assad are no 
longer among the living. But Saddam Hussein, despite all expectations 
to the contrary, remains in power, biding his time, waiting for an 
opportune moment to strike once again in his effort to wreak vengeance 
against those who opposed his efforts to dominate the region in the 
past and who constitute a continuing obstacle to the fulfillment of his 
hegemonic ambitions in the future.
    As we meet here in this historic hearing room, the ``Butcher of 
Baghdad'' is once again rattling his cage. Dire threats, almost 
identical to those he issued a decade ago, are emanating daily from 
Baghdad. At the same time, the sanctions regime is demonstrably 
unraveling, Iraq is pumping more oil than it did a decade ago, and with 
UN inspectors having been barred from Iraq for almost two years, it 
must be prudently assumed that Saddam is well on the way to 
reconstituting his arsenal of chemical and biological weapons. If he 
has been able to obtain fissile material on the black market it is even 
possible that he is in the process of producing nuclear weapons, since 
the knowledge of how to make these weapons of mass destruction, and the 
means by which to do so, were not destroyed during the Gulf War.
    Recognizing the threat still posed by Iraq our government, in both 
its legislative and executive branches, has called for the replacement 
of the Baathist bullies in Baghdad by a broadly based democratic 
government that would be willing to renounce aggression against its 
neighbors, respect the human rights of its own people, and fulfill its 
international obligations.
    The instrument for the achievement of this objective has been the 
Iraq Liberation Act, which was enacted by the Congress and signed into 
law by the President in the fall of 1998. It calls, as you know Mr. 
Chairman, for the transfer of up to $97 million in excess military 
equipment to the Iraqi opposition, as part of an effort to destabilize 
and overthrow the existing Iraqi regime. It is premised on the 
incontestable proposition that a peaceful transition from a malign 
dictatorship to a benign democracy is, in an Iraqi context, a political 
oxymoron, and that to wait for a coup in a military riddled by several 
secret services under a leader who doesn't hesitate to torture and 
execute those he suspects might be plotting against him is to put our 
faith in miracles.
    Yet two years after the passage of this landmark legislation, for 
which you deserve much of the credit, Mr. Chairman, not a single bullet 
has been given to the Iraqi opposition. We have, as I understand it, 
offered them computers and fax machines, but Saddam is unlikely to be 
cowed, let alone deposed, by the transfer of office equipment, no 
matter how technologically advanced it might be. Despite the rhetorical 
embrace of the Iraq Liberation Act by President Clinton when he signed 
the bill in the fall of 1998 it appears that he has no intention of 
utilizing the authority contained in the act to provide arms and 
military training to those Iraqis who are willing to lay their lives on 
the line for the freedom of their country.
    Much will depend on the willingness of the next Administration to 
adopt a more robust policy toward Iraq and to pay more than lip service 
to the ILA. Yet even if the new Administration is willing to actively 
implement the ILA, its ability to do so will depend on the cooperation 
of those countries, such as Turkey, Jordan, and Kuwait, which are 
geographically contiguous to Iraq. Without a willingness by those 
countries to provide sanctuaries and facilitate the supply of arms, the 
prospect of an effective indigenous resistance will remain an illusion 
rather than a reality.
    Right now, the truth is that without exception these countries are 
skeptical about the viability of such a strategy and will not be 
willing to provide the necessary cooperation it requires in the absence 
of a convincing demonstration by the United States that it is 
determined to bring Saddam down and will, if necessary, be prepared to 
use American military power, including ground forces should they be 
required, in support of an armed Iraqi opposition. These countries, 
which rightly or wrongly believe that the Iraqi opposition cannot bring 
down the Baathist regime on their own, do not want to expose themselves 
to the further wrath of an enraged Saddam unless they are convinced 
that by doing so they can be confident he will no longer be in a 
position to retaliate against them. To calm their fears about what 
might happen to Iraq should Saddam fall, it will also be necessary to 
persuade the opposition to reaffirm its commitment to the preservation 
of a unified (albeit federal) Iraq and to make unmistakably clear our 
own determined opposition to the creation of a separate Kurdish state 
in the North or an independent Shia state in the South.
    Our failure to develop a realistic strategy for the overthrow of 
Saddam has put us in a position where we have a publicly proclaimed 
policy--regime change in Iraq--but no credible means or method of 
achieving it. This yawning gap between our stated policy and our actual 
policy is exacting a heavy price in our credibility and will continue, 
to our eventual regret and inevitable disadvantage, to erode our 
credibility in the future.
    This is not a matter to be lightly dismissed. Credibility is the 
coin in which great powers conduct their affairs. Our ability to 
influence others to act in ways that protect our interests and promote 
our values, particularly in the Middle East, depends on their 
perception that the United States has the ability and resolve to meet 
its commitments and carry out its threats. To the extent that Saddam 
remains in power, and continues to defy the relevant resolutions of the 
UN on weapons of mass destruction and other matters, it underscores the 
irrelevancy of our rhetoric and the futility of our policy. We will 
almost certainly end up paying a heavy price for it.
    In defense of its refusal to provide the Iraqi opposition with the 
arms called for in the Iraq Liberation Act, the Administration says it 
does not want to be responsible for ``another Bay of Pigs.'' Neither, 
it contends, does it want to be held morally accountable for the loss 
of life such a policy would inevitably entail. The clear implication of 
the Administration's position is that the Iraqi opposition cannot 
succeed on its own and that by providing it with arms we would be 
setting the stage either for the reintroduction of American armed 
forces or the ignominious defeat of an Iraqi opposition we had failed 
to back up with a use of military power we're not prepared to 
contemplate.
    Leaving aside the extent to which we should be prepared to use 
American military power in support of the Iraqi opposition, both as a 
way of securing the support of contiguous countries and of assuring the 
success of such an endeavor, I can only say that if this had been our 
approach in the 1980's we never would have provided assistance to the 
Mujahadin in Afghanistan, the non-communist resistance in Cambodia, the 
Contras in Nicaragua, or UNITA in Angola. In none of these cases were 
we prepared to commit American military forces, either in the air or on 
the ground, but that didn't stop us from providing assistance to men 
and women who were fighting for freedom in a cause we clearly believed 
was in our own national interest. If there were casualties on the part 
of those who were the beneficiaries of our assistance we didn't feel 
then, and we shouldn't feel now, that we were morally culpable for not 
having committed our own military forces to the battles they were 
waging on their own.
    The next Administration, and the Congress, recognizing these 
realities, will have to decide whether we should continue to pursue a 
policy of containment plus regime change in Iraq or whether we should 
switch to a policy of containment alone. A policy of pure containment 
would have the virtue of enabling us to avoid the erosion in our 
credibility which has been the inescapable consequence of our failure 
to do what needs to be done to bring about a change in the Iraqi 
regime.
    The problem with a policy of containment alone is that it 
implicitly concedes the ability of Saddam to reconstitute his weapons 
of mass destruction, assumes that sanctions will remain in place 
indefinitely, and is premised on the belief that Saddam will continue 
to ``remain in his box,'' as the Secretary of State has put it, because 
of the threat of American military retaliation if he should once again 
invade his neighbors or use his weapons of mass destruction.
    To say that this is a policy based on a foundation of shifting 
sands would be to endow it with a solidity it manifestly lacks. There 
can be little doubt that Saddam is already rebuilding his depleted 
stocks of chemical and biological weapons and is trying to obtain the 
fissile material he needs for nuclear weapons as well. Why else would 
he exclude UN weapons inspectors from Iraq when all he would have to do 
to get the sanctions lifted is to let them back to do their job, if he 
has nothing to hide from their determined eyes? Furthermore, the 
willingness of the international community to maintain sanctions 
indefinitely, and of Saddam to refrain from renewed acts of aggression, 
including the use of weapons of mass destruction, are assumptions of a 
highly dubious nature.
    The sanctions regime has already been greatly weakened. Saddam is 
now earning more money from the export of oil than he did before the 
Gulf War. And there is every reason to believe, as the recent French 
and Russian flights to Baghdad suggest, that it will continue to erode 
to the point of utter ineffectuality. As for the willingness of Saddam 
to stay ```in his box'', and to refrain from using his weapons of mass 
destruction, I can only say, based on his prior record, that this would 
be an exceedingly imprudent assumption to make. He has, after all, 
already used weapons of mass destruction against not only his enemies 
but also his own people. In the last two decades he has gone to war 
twice, once against Iran and once against Kuwait. And he also launched 
a full-scale assault against the Iraqi opposition in Northern Iraq, in 
spite of the fact that the Administration had provided assurances to 
the leaders of the Iraqi National Congress that we would defend them 
against such an attack. Our failure to defend the Iraqi opposition, as 
we said we would, has unquestionably diminished our credibility. But it 
also tells us something about the continuing deterrent value of our 
containment policy.
    So we need as a nation to make a choice: should we try to change 
the regime in Baghdad or should we merely try to contain it.
    I believe we should try to change it. But if we are going to 
succeed in our effort to do so we not only need to arm and train the 
Iraqi opposition, as called for by the Iraq Liberation Act, we also 
need to be prepared to back them up with American military power, 
including the use of ground forces if necessary, if we are going to 
rebuild the coalition that enabled us to defeat Saddam a decade ago.
    I would not preclude the possibility that a well armed Iraqi 
opposition backed up by American air power, particularly if it can 
induce defections from Saddam's regular Army units, can succeed in 
bringing down the regime, without having to use American ground forces 
to do so. Indeed, had we been willing to use our airpower to ground 
Saddam's attack helicopters and to destroy his armor and artillery when 
the uprising erupted in the immediate aftermath of Desert Storm, I have 
no doubt that the Iraqi ``intifadah'' would have succeeded in sweeping 
the Baathist regime into the dust bin of history. But unless we're 
prepared to ``put our military where our mouth is,'' there will be 
little hope of securing the cooperation of the countries without whose 
active assistance an indigenous insurrection has little chance of 
success.
    If we're not prepared to pay the price in blood and treasure such a 
strategy would require (a price, I believe, that will ultimately cost 
us a lot less than a failed policy of containment), we should change 
our declared policy and cease calling for the overthrow of the regime 
and concentrate instead on trying to contain it. I have the gravest 
doubts that such a policy will work. But it would at least enable us to 
avoid the continuing loss of credibility which results from a manifest 
failure to bring about a change in a regime to whose destruction we are 
publicly committed as a matter of fundamental American policy.
    Should the next Administration conclude that leaving Saddam in 
power would pose an unacceptable threat to our most vital interests, as 
I hope it will, it will have to convince the Congress and the country 
that the removal of this threat may well require the renewed use of 
American military power, in conjunction with at least some of our 
former coalition allies, if we are going to finally succeed in 
eliminating the primary source of instability in the Persian Gulf and 
Middle East: the Baathist regime in Baghdad.
    This cannot, I fully recognize, be done in a vacuum. Under current 
circumstances, an ``out of the blue'' presidential call for such a 
policy would probably be met by apathy at best and incredulity at 
worst. But if the next President is prepared to adopt a much more 
robust approach to bringing about a regime change in Iraq, along the 
lines I have outlined, it shouldn't be hard to find a justification for 
doing so.
    The most likely, and probably the most convincing justification (in 
the absence of another Iraqi invasion of Kuwait or a move by Saddam to 
reassert his military control of Northern Iraq) would be clear evidence 
that Iraq is, indeed, reconstituting its weapons of mass destruction. 
It was, after all, only three years ago, that Secretary of Defense 
Cohen held up a five pound bag of sugar on national television and said 
that ``this amount of anthrax spread over . . . Washington could 
destroy half the population'' of our Capital city.
    The Administration, to be sure, has said that were it to come into 
the possession of such evidence it would respond militarily to such a 
development. But for what purpose and against what targets it has 
declined to spell out. Since weapons of mass destruction, and the 
facilities that produce them can easily be hidden and disguised, it is 
highly unlikely that we would be any more successful in destroying them 
with a renewed but limited air campaign than we were during the much 
more extensive air campaign associated with Desert Storm. It must be 
understood that the only way to eliminate weapons of mass destruction 
from the Iraqi inventory, in the absence of the kind of intrusive 
inspections Saddam has no intention of permitting, is to remove the 
regime that is producing them.
    What Secretary Cohen said about Iraq's weapons of mass destruction 
was true then and remains true today. This is a threat the American 
people can understand and, with forceful presidential leadership, I 
have no doubt that they would be prepared to support a renewed effort, 
including the use of American military power, to eliminate it.

                                   - 

</pre></body></html>
